<html>
<title> - NATIONAL LEADERS' CALL TO ACTION ON TRANSPORTATION</title>
<body><pre>[Senate Hearing 112-822]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-822
 
           NATIONAL LEADERS' CALL TO ACTION ON TRANSPORTATION

=======================================================================



                                HEARING

                               BEFORE THE

                              COMMITTEE ON

                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works




       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
85-227                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arizona
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 16, 2011

                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     5
Johanns, Hon. Mike, U.S. Senator from the State of Nebraska......     7
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     8
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    10
Carper, Hon. Thomas, R., U.S. Senator from the State of Delaware.    11
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    13
Baucus, Hon. Max, U.S. Senator from the State of Montana, 
  prepared statement.............................................    54

                               WITNESSES

Trumka, Richard, president, American Federation of Labor and 
  Congress of Industrial Oreganizations (AFL-CIO)................    14
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Inhofe...........................................    21
        Senator Lautenberg.......................................    21
        Senator Carper...........................................    22
        Senator Sessions.........................................    23
Donahue, Thomas J., president and CEO, The U.S. Chamber of 
  Commerce.......................................................    24
    Prepared statement...........................................    27
    U.S. Chamber of Commerce:
        Policy Declaration, Transportation Infrastructure-General    33
        Recommendation to Congress Regarding SAFETEA-LU 
          Reauthorization........................................    34


           NATIONAL LEADERS' CALL TO ACTION ON TRANSPORTATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 16, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Baucus, Carper, 
Lautenberg, Cardin, Sanders, Udall and Johanns.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Good morning, everybody, and welcome.
    I am pleased to have with us today two national leaders who 
represent business and workers across our great country to 
discuss the needs for investments in transportation and, more 
specifically, the need to enact a Surface Transportation Bill 
this year.
    In his State of the Union address on January 26, President 
Obama called for the rebuilding of America. The two witnesses 
who will testify here today, Tom Donahue, President of the U.S. 
Chamber of Commerce, and Richard Trumka, President of the AFL-
CIO, were clearly listening. Following the speech, they issued 
a rare joint statement supporting the plan to create jobs and 
accelerate the economy, the economic recovery, through 
investment in our Nation's crumbling infrastructure.
    As Mr. Trumka and Mr. Donahue stated, building a modern 
transportation system will help our Nation compete in the 
global economy.
    [Remarks off microphone.]
    Senator Boxer. The U.S. Chamber of Commerce and the AFL-CIO 
do not always agree. So, Mr. Donahue and Mr. Trumka's 
willingness to stand together or, in this case, sit together, 
in support of a strong Surface Transportation Bill, is a 
powerful signal. I want to thank both of them, from the bottom 
of my heart, for this.
    Just like they have set aside their differences on this 
issue, I believe we in Congress, Democrats and Republicans, 
must roll up our sleeves and get to work on a bipartisan bill. 
With that goal in mind, I have reached across the aisle in the 
Senate and House of Representatives to find common ground. 
Senator Inhofe and I always work together on infrastructure 
issues and now is no exception. Through their staffs and 
through our conversations, we are working together to develop a 
Surface Transportation Bill that can gain bipartisan support 
and provide much needed investment and jobs.
    I have also had discussions with Representative John Mica, 
Chairman of the Transportation and Infrastructure Committee, 
who is my counterpart in the House. Next Wednesday, Mr. Mica's 
committee and ours will hold a joint Senate/House hearing in 
Los Angeles on transportation needs and our proposals to get 
the economy back on track through infrastructure investment.
    I was very pleased that Chairman Mica suggested holding the 
hearing in Los Angeles because Los Angeles has been a leader in 
figuring out a way to leverage funds and leveraging is crucial 
in these tough times when we are looking to stretch our dollars 
as far as we can.
    Los Angeles' 30/10 Initiative, which is a model for the 
Nation, will improve the local economy by creating hundreds of 
thousands of jobs now and by reducing carbon pollution 
emissions and other emissions and easing traffic congestion. 
The 30/10 Initiative would speed up delivery of the transit 
projects funded by a local sales tax measure passed by the 
people of Los Angeles. The idea was to come to the Federal 
Government and ask us to front load those moneys knowing that 
there is a stream of revenue behind it. It is virtually no risk 
to the Federal Government and this could happen in any part of 
our great Nation.
    So, Senator Inhofe and I have been looking at changes to 
part of an existing transportation law call TIFIA, 
Transportation Infrastructure Finance and Innovation Act, so 
that we can figure out a way that this type of leveraging could 
become more common and we can stretch those Federal dollars.
    TIFIA helps communities leverage their transportation 
resources by providing loans and loan guarantees. According to 
the Federal Highway Administration, every dollar made available 
through TIFIA can mobilize $30, $30 in transportation 
investment. I am proud to report that there is a growing 
bipartisan support here. I think we will hear from our friends 
at the witness table about this because everybody knows we need 
to cooperate and we need to stretch our dollars.
    The need for a Surface Transportation Bill is real. Our 
Nation's transportation systems used to be the best in the 
world but our investments have not kept up. We are falling 
behind. The rest of the world is building infrastructure 
systems to move people and goods. We need to do that here.
    There is a huge backlog, according to the American Society 
of Civil Engineers. In their 2009 report card, our Nation's 
infrastructure received a D based on 15 categories. We know the 
hardship in the construction industry. We know our friends in 
business and labor are struggling and suffering. We have heard 
them over and over.
    The construction industry, just in the last month, lost 
32,000 jobs, 130,000 the past year, and today there are nearly 
2 million unemployed construction workers. We have a little 
presentation, we are not quite ready, but when we show this to 
you, I think it will take your breath away.
    Raymond Poupore, Executive Vice President of the National 
Construction Alliance, pointed out at our last hearing, we 
could fill nearly 20 stadiums the size of Cowboy Stadium where 
the Super Bowl was played with unemployed construction workers 
for a total, again, of two million people. This created such a 
powerful image in my mind, and in my Ranking Member's mind, 
that we wanted to share it with you.
    So, I would ask the staff to stand up now, each of them 
holding two photos. So, if you look at all of this, it is 
breathtaking. Two million people. Two million construction 
workers. I think it is worth taking a look at this, at those 
people. Each one of those people represents a family. I think 
this image was really worth showing and I want to thank my 
Republican friends for going along with this because I think it 
is an image worth noting. Thank you very much.
    There is a story of pain and unemployment in the 
construction sector in large part due to the housing crunch. We 
are still not out of that housing crunch. We can begin to 
address the serious problem by making the kind of 
transportation investments we need. Putting America back to 
work, providing new business opportunities, helps everyone.
    As Mr. Trumka and Mr. Donahue pointed out, we have a common 
goal, investing in our country. We invest in a lot of other 
countries. It is time we invest in America. We have an 
opportunity to move forward on a robust Surface Transportation 
Bill for the 21st Century. I look forward to hearing from my 
colleagues today as well as our distinguished witnesses.
    I close with this. 2010 was a tough election. I am looking 
at two of you who were deeply involved in my race. On different 
sides.
    [Laughter.]
    Senator Boxer. Different sides. Robust, tough. But for 
everything there is a season. Election season comes soon 
enough. Now we have an obligation to set all that aside and 
work together for our people, for jobs, for business, for our 
Nation.
    So, thank you all, and I am pleased to call on the Ranking 
Member.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman, and I am going 
to go ahead again and repeat what I said at the last hearing 
that we had. Much to the chagrin of my staff, I am not going to 
use their statement. I am going to submit that for the record.
    I want to also tell my friends here on both sides of the 
aisle that I will have to leave for 15 minutes to introduce a 
bill on the floor at 10:35 and then I will be right back.
    I hope, first of all, to have you two giants here is very, 
very significant. When you stop and you think about all of the 
segments that you represent, and we have this one thing in 
common. You know, in this Committee, this is Environment and 
Public Works, and on the environment issues I do not get along 
with these guys over here. Barbara and I are on opposite ends.
    I am still ranked, by the national journalists, as the most 
conservative member of the U.S. Senate and yet, and Barbara is 
on the other end of that, and yet we are together on this. This 
is very significant. There is not a person up here who does not 
look at the priorities of infrastructure in America and 
recognize the dire straits we are in.
    Now, if you look at what is going to happen in the next 30 
years, we are going to have doubling truck traffic, increasing 
car traffic by 30 percent. I though the President did a 
disservice when he came out and he said yes, we need $556 
billion for infrastructure. Well, there are two problems with 
that. It is easy to say that, and I agree we could spend that 
much. We could do it. This bill that we have, the robust bill 
that we had in 2005, was a huge success. But, that just not 
much more than maintained what we had already. This is what we 
ought to be doing.
    I think that, the other thing I did not like about his 
statement was he wants to change this from the Highway Trust 
Fund to Transportation Trust Fund. Well, you know what that 
means. That means, I have been around long enough, I was on 
this Committee in the House for 8 years before coming here in 
1994. We used to have surpluses. Do you remember that? We 
always had surpluses in the Trust Fund.
    Then all of these hitchhikers came along. They wanted to 
get their deal. You know, I do not care if it is bike trails or 
high speed rail or everything else, instead of just maintaining 
and building highways, bridges and construction. So, I would be 
opposed to that.
    I think what we need to understand is we would not be here 
today if we had 2 years ago, tomorrow is the second year 
anniversary of the Stimulus Bill, $800 billion that was 
supposed to stimulate. Do you know how much of that went to 
roads, highways and construction? Three percent.
    Now, Barbara and I joined hands. We had an amendment to 
increase that to pay for everything where it was spade ready in 
America, and then come up and use that for a 6-year bill, we 
would not be here today. Good things would be happening.
    So, I think it is a very difficult thing to come up with 
the funding because we are talking about huge amounts. When you 
stop and think about all the money that has been spent, right 
now we are looking at a budget that came out from the President 
that $8.7 trillion in new spending, $1.6 trillion in new taxes, 
all this, the deficit that he is proposing now is more than the 
1996 budget to run the entire country for a whole year. That is 
just the deficit.
    So, the money is out there. It has not been directed in the 
right places. So, we are going to look at all possibilities, 
areas where you two can use your resources and your influence 
to try to help us come up with a way to have a robust bill.
    So we are all together on this and we will get started.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    This is the first transportation hearing we've held since Senator 
Vitter became ranking member of the Transportation and Infrastructure 
subcommittee. I'd like to welcome him in this role and I look forward 
to working with him on the highway bill.
    Today's hearing highlights how important transportation 
infrastructure is to our economy. We have one of the leading voices 
from the business community sitting next to one of most high profile 
labor leaders and remarkably they are both saying the same thing: 
without robust and strategic investments in our roads and bridges, the 
U.S. economy will not achieve the growth necessary to get us out of our 
current economic crisis and we will have trouble competing with other 
countries.
    Without the investments and vision needed to build the interstate 
system, our country would not be the economic power it has been for the 
last 50 years. Much of our interstate is at the end of its useful life 
and needs to be rebuilt. On top of this, truck traffic will double over 
the next 30 years and car traffic will increase by 70 percent over the 
next 45 years. To accommodate this demand and begin to address our 
current levels of congestion, hundreds of billions of dollars are 
needed to build new roads and expand existing roads.
    I'd like to end with some comments on the President's budget 
proposal for the highway bill, which was released on Monday. I was 
hoping for some positive leadership by the Administration after only 
paying lip service to our crumbling roads and bridges. Sadly, the 
President failed to step up and show any leadership. He failed to 
specify how he would pay for his mammoth $556 billion proposal. Instead 
he punts, saying his higher trust fund revenue is ``a placeholder and 
do not assume an increase in gas taxes or any specific proposal to 
offset surface transportation spending. Rather, they are intended to 
initiate a discussion about how the Administration and Congress could 
work together on a bipartisan basis to pass a surface transportation 
reauthorization. . . ''
    This puts us back in the hole former House Democrats dug last 
Congress: proposing a huge bill with no way to pay for it. This is flat 
out irresponsible. If he were serious about getting a bill done, he 
would have either cut spending or said how he is going to pay for it. I 
can only call this a setback. It gives false hope to transportation 
advocates and leaves Congress in the same box as before the budget was 
released. This comes almost exactly 2 years after the failed, so-called 
stimulus bill, which was sold as having primarily an infrastructure 
focus, but ended up with only 3 percent of the total going to roads and 
bridges. Here we go again.
    On top of all this, the President proposes destroying the Highway 
Trust Fund. He wants to open it up to pay for a number of things 
currently not eligible for funding, including Amtrak, high speed rail, 
and a greater share of transit (which currently receives 20 percent of 
its funding from the general fund). The whole point of a trust fund is 
that users pay for the services they are getting. Not a single penny is 
paid into the trust fund by users of transit or Amtrak, nor does any 
high speed rail proposal include user fees deposited into the trust 
fund.
    The current problem with the Highway Trust Fund is that we have 
gotten away from the user pays, user benefits concept and are providing 
a free lunch to too many unrelated activities. The Highway Trust Fund 
needs to focus its spending, not broaden it. I can't blame the 
President on this; he has been very clear about where his priorities 
lie. He is less interested in rebuilding our roads and bridges than in 
building street cars and bullet trains.
    I think this budget proposal will make it harder for Congress to 
get a bill done. But as we are discussing today, it is imperative that 
we get a good bill done soon. So I am going to treat this budget as yet 
another obstacle we have to overcome to enact a responsible, budget 
neutral bill this year.

    Senator Boxer. Thank you, Senator.
    I am just going to say, in order of arrival, Cardin, 
Sanders, Lautenberg, Carper and Udall and, of course, my 
friend, Senator Johanns. But you will go right after Senator 
Cardin.

  STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Madam Chair, thank you very much for this 
meeting. To Tom Donahue and to Rich Trumka, it is wonderful to 
have you all here. It is nice to have you here together on an 
issue that I think we all do agree on, and that is investment 
in our transportation infrastructure will be good for our 
economy, will create jobs for our community, will make America 
more competitive, will help deal with our future innovation by 
allowing businesses to grow, et cetera, et cetera. We are in 
agreement on that. It is good to see both of you at the table 
together for this issue.
    A $1 billion investment in transportation infrastructure 
will create 30,000 jobs. But the interesting point is it will 
create even more jobs in public transportation. So, I just want 
to differ, if I might, from the Ranking Republican Member as to 
the name of the fund. I think it is very important that we have 
a coordinated transportation system in this country. Quite 
frankly, I am disturbed that the projections, according to our 
friend, would increase 30 percent as far as car traffic in this 
country is concerned. I hope it is not 50 percent. I would like 
to see it at 20 percent.
    Senator Inhofe.
    [Remarks off microphone.]
    Senator Cardin. I would like to see an increase in public 
transportation because I think that is going to be good for our 
country, it will help us with our energy policies, it will 
create more jobs. It is interesting. The American Public 
Transportation Association tells us there is a three to one 
ratio. For every $1 we invest in public transportation, we will 
create $3 in private sector sales by businesses that locate 
near public transportation sectors.
    So, I think it is good for our country to invest in public 
transportation and I just want to stress that as we start 
today's hearings. It helps local economies. Values near metro 
stops are substantially higher because businesses want to 
locate near metro stops because it is convenient for their 
employees in order to be able to get to work.
    Commercial values are all higher near metro stops. In my 
own area, in this area, you go to Arlington and Alexandria, VA, 
Bethesda and Silver Spring, MD, you go to areas in Prince 
Georges County, you will find that there are considerably 
higher values in the lease space that is within walking 
distance of our metro sites than otherwise.
    Maryland's highest transportation priorities, and our 
Governor will be here tomorrow to talk to our delegation, are 
three public transportation projects. So, I want to make sure, 
as we focus on what we are doing on the reauthorization of our 
Surface Transportation Act, that we work very closely with the 
Banking Committee, as it relates to the public transportation 
issues, because I think it will make it easier for those who 
use our roads, make it easier for the commuters that have to 
use their cars, if there are less cars on the road.
    Of course, or energy policies will be of greater advantage 
if we use less energy in transportation, and we do that through 
public transportation.
    So, I just urge my colleagues, there is a good reason why, 
Rich, you will find that a lot of your unions are strongly 
supportive of the public transportation part of this, and for 
good reason. Because they know there are jobs, they also know 
it will help our economy and will help our community.
    Quite frankly, we all live in the second most congested 
area in the country. Those of you who have to commute into the 
Nation's Capital, you know what I am talking about. Our metro 
system here is overloaded, it needs to be modernized, its 
ridership increases dramatically every year, and we may need to 
pay attention to it.
    So, I would just hope that as we reauthorize Surface 
Transportation Programs that we are mindful that we need to 
increase, not decrease, our commitment to public 
transportation.
    Senator Boxer. Thanks, Senator.
    Senator Johanns.

STATEMENT OF HON. MIKE JOHANNS, U.S. SENATOR FROM THE STATE OF 
                            NEBRASKA

    Senator Johanns. Madam Chair, thank you. Let me say to the 
witnesses, I appreciate the show of unity, if you will, and I 
appreciate you being here.
    When I was Mayor, in another life, and when I was Governor, 
in another life, the one thing I could always get business and 
labor to agree on was investment in infrastructure. In some 
respects, it was kind of a no-brainer. It was a job creator and 
it was an economic development engine and we could all come 
together on that. Your presence illustrates that is the case 
here, too.
    Let me offer a perspective, if I might, based upon those 
past experiences. Each bidding season, if you will, when I was 
at the city or when I was Governor, we would anxiously await 
the results of the bidding process. What we wanted to achieve 
year after year after year was a strong, competitive bidding 
process because it kept prices for construction down.
    I quickly realized that the only way to achieve that was to 
have a sufficient and predictable flow of funding into those 
programs because the construction industry could not tolerate 
up and down and up and down. It is a high capital investment 
industry. You do not go out and buy the equipment that they 
need to build the bridges and roads without investing a 
substantial amount of money.
    When all of those charts were raised, or those pictures 
were raised of the football stadium and all of the people, what 
that tells me is not only have a lot of people lost their jobs, 
but a lot of construction companies have gone out of business.
    Now, at the end of the day, some will survive. That is the 
nature of a free market system. But at the end of the day if we 
do not address the issue before us the competitive nature of 
this system is going to be decreased because you will just have 
fewer people in the business, bidding the projects and keeping 
that bidding aggressive and prices low.
    So, in some respects, folks, what this is about is pay me 
now or pay me later. We have to build roads. We have to build 
bridges. We cannot allow, as a Nation, for our bridges to fall 
into the river as one did fairly recently. It is not an 
acceptable result.
    If we do not somehow figure out how to deal with this and 
how to provide a sufficient amount of funding, I know what will 
happen. We all know what will happen. We will pay a higher cost 
for that same construction in years ahead because the 
competitive nature will decrease as companies go out of 
business.
    So, my hope is that we can find a solution to this. As 
passionately as some feel about, and this will be my last 
point, as passionately as some feel about public 
transportation, I feel equally as passionately about investment 
across our great country.
    When I was Governor, I liked to say that my plan for the 
State of Nebraska was a 93 county Economic Development Plan. In 
other words, no county gets left behind. But, you cannot create 
jobs without investment in roads and bridges. I can give you 
example after example where, if Government led the way and put 
down the infrastructure, the investment would follow. Business 
would build and construction would occur and the after effect 
of that government investment would be significant and it would 
generate revenues. Like I said, I could take you on a car ride 
through Lincoln, NE or Omaha or Scottsbluff and where we made 
investment, additional investment was bound to follow.
    So, I hope we get this right because I fear that not only 
are we losing those jobs, but we are losing those companies and 
that is going to have an impact on the cost of construction in 
the future.
    Madam Chair, thank you.
    Senator Boxer. Senator, thank you so much for those 
remarks.
    Senator Sanders.

STATEMENT OF HON. BERNARD SANDERS, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Sanders. Thank you, Madam Chair. This is an 
interesting day, as I said to Jim Inhofe. There it is. I 
actually agree with much of what he said and, Mr. Johanns, I 
certainly agree with much of what you said. It is interesting 
to have people from organized labor and the Chamber of Commerce 
with us today, the leadership there.
    I speak also as a former mayor. I think I want to reiterate 
one of the points that Mr. Johanns made. My experience, and I 
am sure yours was, that if you do not take care of your rotting 
infrastructure, your crumbling infrastructure, this year, it 
does not get better next year. Right? It gets worse and it 
becomes more expensive.
    So, I think that in the midst of a severe recession where 
our construction industry is in very bad shape, we saw the 
amount of unemployment that is there, if there ever was a time 
to start rebuilding our crumbling infrastructure, now is the 
time. So, this is, what we are talking about today is jobs. We 
are talking about something in terms of increasing the wealth 
of the Nation. It has to be done. Let us do it now.
    We are talking about roads. In my State of Vermont, the 
ARRA stimulus package did not put as much money as I wanted. We 
put more money into roads and bridges than at any time in the 
history of our State and we are seeing the difference. But 
clearly we need a lot more.
    In States like Vermont where you have 20 below 0 weather, 
that temperature beats up your roads very badly. So, we have to 
be mindful not only of different States with different needs, 
but rural areas as well. Let us not forget about the problems 
in rural America.
    Also, this is an issue of international competition. Madam 
Chair, let me just read you this. Today, the United States 
invests just 2.4 percent of GDP on infrastructure. Europe 
invests twice as much. More troubling, China invests almost 
four times our rate, roughly 9 percent of their GDP annually, 
on rail alone. I know this is something that Frank Lautenberg 
has been very interested in. The Chinese invested $186 billion 
from 2006 through 2009. According to the New York Times, within 
2 years that country will open 42 new high speed rail lines 
that will have trains that can reach speeds of more than 210 
miles per hour.
    In the United States today, do you know what we have? We 
have situations where trains go from location A to location B 
in a slower time than they did 50 years ago. We are moving 
backward, and the Chinese are building dozens of high speed 
rails.
    But it is not only trains and it is not only roads and it 
is not only bridges. It is tunnels, it is water as well. I 
know, outside of the jurisdiction of this bill.
    Let me tell you a story and I do not think it is unique to 
Vermont. I met with a mayor in one of our largest cities a 
couple of months ago. He had this piece of pipe, a kind of old, 
decrepit looking piece of pipe. He said, you know, the guy who 
laid this water line for us, after he did this, he designed it, 
he went off to the war. I knew what the punch line was, and I 
said, well, what war was that? He said it was the Civil War.
    Senator Boxer. What?
    Senator Sanders. The Civil War. This was Rutland, VT, the 
second largest city in the State of Vermont. That is not unique 
in America. We are losing enormous amounts of fresh water in 
this country because of leaks in water lines. We have 
wastewater plants all over America that need work, tunnels that 
need work, and meanwhile you showed us a picture of millions of 
workers ready to go to work. When they go to work rebuilding 
America, they get a paycheck. They spend that paycheck. It has 
a stimulus impact on our country.
    So, what I am excited about today is that I think there is 
a broad understanding from all across the political spectrum 
that now is the moment to rebuild our crumbling infrastructure, 
to pay attention not just to urban needs, as important as they 
are, but to rural needs, to do it all across the 
infrastructural spectrum. I am excited by the fact that we have 
Mr. Donahue and Mr. Trumka here, that we have people with very, 
very different political philosophies united about this.
    So, Madam Chairman, let us go forward on this. We have an 
opportunity to do a whole lot for America.
    [The prepared statement of Senator Sanders follows:]
   Statement of Hon. Bernie Sanders, U.S. Senator from the State of 
                                Vermont
    Madame Chairwoman, thank you for calling this important hearing 
today. I look forward to working with you and the other members of this 
committee as we craft a new surface transportation bill.
    The issue at hand is not just transportation's role in supporting 
the economy, but rather, it is about getting our national priorities 
straight. It is no secret that the United States is facing the worst 
economic crisis since the Great Depression. Millions of people have 
lost their jobs as a result of Wall Street greed. We have a record-
breaking deficit. The middle class is disappearing, and the gap between 
the very rich and everybody else is growing wider.
    In my view, it is high time that we create millions of jobs 
rebuilding our deteriorating infrastructure. Let me briefly explain.
    Our transportation infrastructure needs are well-documented, and 
they are growing more dire with each passing year. In 2009, the 
American Society of Civil Engineers graded America's roads, public 
transit and aviation with a ``D'' and said $2.2 trillion must be 
invested over the next 5 years simply to get to a ``passable'' 
condition. And as our constituents know, our nation's infrastructure 
needs go well beyond just the transportation sector. Our water systems, 
wastewater plants and schools all need an enormous amount of work, and 
our energy and broadband networks all need upgrading.
    In my State of Vermont, we are debating--and I kid you not--how to 
finance the replacement of Civil War-era railroad infrastructure with 
higher-speed rail. Thirty-five percent of Vermont's 2,700 bridges are 
either ``structurally deficient or functionally obsolete,'' and more 
than half of those have structural deficiencies.
    Throughout our history, America has led the way on transportation 
innovations: a network of canals, a transcontinental railroad, 
Interstate highway systems, and a robust network of regional airports 
have kept Americans connected and the economy humming. These advances 
have been the envy of the world. Sadly, that is no longer the case and 
I fear we are losing ground.
    Today, the United States invests just 2.4 percent of GDP on 
infrastructure. Europe invests twice that amount. More troubling, China 
invests almost four times our rate--roughly 9 percent of their GDP 
annually.
    On rail alone, the Chinese invested $186 billion from 2006 through 
2009. According to The New York Times, within 2 years that country will 
open 42 new high-speed rail lines that will have trains that can reach 
speeds of more than 210 miles per hour. By 2020, China plans to add 
26,000 additional miles of tracks for freight and travel, 230,000 miles 
of new or improved roads, and 97 new airports.
    In addition to the issue of long-term economic competitiveness, 
investing in transportation infrastructure remains one of the best ways 
to stimulate the economy in the short term. For every $1 billion in 
Federal funds invested in infrastructure, more than 30,000 jobs are 
created or sustained, and those jobs have a significant impact on local 
economies.
    Last October, the Department of the Treasury and the Council of 
Economic Advisers issued a report concluding that well-designed 
infrastructure investments raise economic growth and productivity, and 
have significant ``spillover effects'' on economic development, energy 
efficiency, public health and manufacturing.
    The study also found that infrastructure spending 
disproportionately benefits the middle class. On one hand, the majority 
of jobs created are in the construction sector, which--with an 
unemployment rate of more than 22 percent--has been particularly hard 
hit during the recession. On the other hand, the infrastructure 
improvements themselves also primarily benefit middle class families.
    Let's put Americans to work rebuilding our country from the bottom-
up, in jobs that cannot be out-sourced or off-shored. Let's begin the 
task of reinvesting in America.

    Senator Boxer. Well said. Thank you.
    Senator Lautenberg.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Madam Chairman.
    This is such an important review that we are taking here 
today. President Obama pointed out when he addressed the U.S. 
Chamber of Commerce last week that Richard Trumka and Tom 
Donahue rarely agree. But they do agree on the need to build a 
21st Century infrastructure system and I, we all here, share 
this conviction.
    Our country is going to be stuck in a morass of congestion, 
foul air, further dependence on foreign oil and it is stifling 
our economic growth and our job creation. After all, companies 
cannot succeed when their employees are stuck in traffic or 
when delivery delays prevent them from putting their products 
into the hands of the customer. We dare not make that mistake. 
If the United States does not invest in its transportation 
infrastructure, we will all be left behind.
    As we hear, and have just heard, other countries are 
building for the future, strengthening their economic 
competitiveness in the process. When we hear and look at what 
is happening in China and Europe, they are leading the global 
race for high speed rail. Today, it takes just 2 hours to 
travel 250 miles between Paris and the French city of Lyon. By 
comparison, Amtrak's Acela takes 5 hours to go between 
Philadelphia and Boston, roughly the same distance.
    The success of high speed rail abroad reminds us that we do 
need a well balanced approach to transportation in our country, 
to create jobs, to get our economy back on track, keep America 
competitive. We cannot rely solely on cars and trucks and 
planes. We have to invest in rail as well.
    That is why I am working with Amtrak now to build a new 
gateway tunnel under the Hudson River which will expand high 
speed rail in the Northeast Corridor while improving rail 
service in my home State of New Jersey. It is an exciting 
project for our future. It shows that Amtrak is serious about 
its mission to provide world class intercity travel options to 
the public.
    It was pleasant to see Vice President Biden outline the 
Administration's bold planning for a high speed rail just last 
week. The Administration's plan will make trains a faster, more 
reliable alternative to other transportation modes and build 
upon the High Speed Rail Grant Program that I helped author a 
little more than 2 years ago.
    I know that some of our elected officials on Capital Hill 
and across the country will tell you our country cannot afford 
these investments right now. I do not think there was ever a 
time that major investments were at a good time, when it was 
not the right time. If we look at the George Washington Bridge 
and the tunnels that were built in my area over the years, they 
were not done when there was a huge cash-flow. They were done 
when things were tight, 1935 for the George Washington Bridge 
and similarly for the others.
    But critics want to blindly cut public investment simply 
for the sake of cutting. It is a reckless approach. It will do 
irreparable harm to our country. Take it from me. When I was 
building a business, our business, I learned first hand that if 
you want to be successful tomorrow you have to lay the 
foundation down now, or today. The same principle applies here. 
If we want to leave our children and grandchildren a better 
country, we better make these smart investments on their behalf 
and do it now.
    So, I am sorry that Senator Inhofe is not here because when 
he talked about if we look ahead 30 years, I just want to look 
ahead.
    [Laughter.]
    Senator Lautenberg. Nobody got that, huh?
    Senator Boxer. I did.
    [Laughter.]
    Senator Lautenberg. Thirty years from now, I will be middle 
aged.
    [Laughter.]
    Senator Lautenberg. So, I look forward to hearing from 
today's witnesses and working with my colleagues to strengthen 
America's transportation infrastructure system. Tom and 
Richard, I am glad to see the two of you sitting side by side 
with no handcuffs on. So, let us continue on.
    Senator Boxer. Thank you.
    Senator Carper.

STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM THE STATE 
                          OF DELAWARE

    Senator Carper. Thanks, thanks very, very much. I join my 
colleagues in welcoming both of you, together.
    I am sure you both watched the President deliver the State 
of the Union Address. You have seen a lot of those before. As 
in the past, the Democrats sat there and the Republicans sat 
here and as you know, this time, a lot of us sat together 
across the aisle.
    Instead of just Democrats standing up on a Democratic 
President's speech to applaud, and there were Republicans 
standing up for Republican's speech to applaud, we stood 
together. We stood up, frankly, a lot less and I found the 
things we actually stood up to applaud for were, for the most 
part, worth applauding.
    I think it is not unimportant that that night we stood 
together during the speech, a good speech, but also that we 
find plenty of opportunities to stand together on important 
issue to our country going forward. God knows that the decaying 
infrastructure, the decaying transportation infrastructure, is 
something that we need to stand together on. It sounds like we 
are.
    We are delighted that your voices are being raised loud and 
clear to support that and to encourage us and our colleagues. 
So, we simply think that what you are doing, your presence 
here, is just great.
    I would urge you to take your message beyond the walls of 
this hearing room. I urge you both to talk to business leaders 
and to labor leaders and to impress upon them the importance of 
investing in transportation and why those investments need to 
be paid for. I always like to say if something is worth having, 
it is worth paying for. That is why we end up with AAA credit 
ratings in Delaware and we need to follow, and in Nebraska I 
suspect as well, and we just need to do that more around here.
    I am one of the few people who is actually on record for 
supporting a modest, gradual increase in the Gas Tax. George 
Voinovich, the only person I could find to join me on that was 
George Voinovich. He was leaving and so he was willing to join 
me in that. But we proposed a penny a month increase in the gas 
tax over a period of 25 months and to use most of that for 
infrastructure, use some of that for debt reduction.
    God bless Erskine Bowles and Alan Simpson because when they 
proposed to the Deficit Commission, they actually said we will 
take part of the Voinovich-Carper idea and that is to go maybe 
15 cents, but not all at once, to do it over maybe 3 or 3\1/2\ 
years, maybe a penny or so a quarter, and to use that money in 
their proposal just for infrastructure, just for transportation 
infrastructure. Think about a 15 cents increase in about 3\1/2\ 
years. I have seen 3\1/2\ months where we have seen gas prices 
go up or down by 15 cents. I have seen 3\1/2\ weeks, we all 
have, where they have gone up by that much.
    So, I would ask for you, just in the spirit of things worth 
having are worth paying for, to keep that in mind in helping us 
to find a way that we can make this acceptable to the folks in 
our country.
    But we ought to take action and I think the time is now and 
to do what is in the best interests of our country. Again, the 
voice of the Chamber and the AFL-CIO are just incredibly 
important to this debate.
    I will close with this. I like, to my colleagues who have 
heard me quote Albert Einstein, I am probably the only person 
around here who quotes Albert Einstein, but one of the things 
he used to say is in adversity lies opportunity. In adversity 
lies opportunity. I think I have made a life of living off of 
that, in adversity lies opportunity.
    If you look around this country today, at our decaying 
infrastructure, that is adversity. If you look around our 
country today and see high levels of unemployment in the 
construction industry, that is adversity. But if we can somehow 
summon the will to actually pay for what needs to be done, we 
can address that adversity and turn it into great opportunity 
for a lot of people in those industries building our 
transportation systems and also for our country.
    Thank you.
    [The prepared statement of Senator Carper follows:]
       Statement of Hon. Thomas R. Carper, U.S. Senator from the 
                           State of Delaware
    Madam Chairman, I'd like to welcome Mr. Donohue and Mr. Trumka and 
thank them for testifying before our committee.
    I hope that everyone in this room recognizes the important 
statement that Mr. Donohue and Mr. Trumka are making today. These 
business and labor leaders agree that a stronger transportation system 
is in our Nation's best interest.
    I applaud Mr. Donohue and Mr. Trumka for speaking with a united 
voice on transportation.
    However, I ask you to take your message beyond the Environment and 
Public Works Committee. I urge you to talk with business and labor 
leaders around the country about the importance of investing in 
transportation and why those investments need to be paid for.
    I am on the record in support of a gas tax increase to pay for 
those investments.
    As the financial condition of the Highway Trust Fund worsens and 
our highways, bridges, and rail systems continue to deteriorate, action 
must be taken on transportation funding.
    We must do what is in the best interest of this country.
    The membership of the Chamber of Commerce and AFL-CIO are critical 
to this debate.
    I hope that today's united voice will continue as a sustained 
effort in support of transportation.
    I look forward to your testimony.

    Senator Boxer. Thank you, Senator. Senator Udall, and then 
we are going to move to our panel.

STATEMENT OF HON. TOM UDALL, U.S. SENATOR FROM THE STATE OF NEW 
                             MEXICO

    Senator Udall. Finally, finally. That is good. We are going 
to make it in under 45 minutes today.
    Being the last in line, everything has been said but not 
everyone has said it. So I will not repeat all of the fine 
comments that have been said earlier, but just to make two 
points.
    I think that the theme here from Johanns and Sanders and 
all of them, Carper, is how do we find a way to get a constant 
flow of resources into the infrastructure? The President has 
come up with his idea of a National Infrastructure Bank. That 
worries me a little bit because I do not know the rural areas 
are protected. But I think the theme we are hearing, over and 
over again, is how do we protect our infrastructure over the 
long term and have a flow of resources. I think you two can 
really help us with that.
    With that, Chairman Boxer, I am going to put my opening 
statement into the record so we can get directly to the two 
witnesses.
    Thank you very much.
    [The prepared statement of Senator Udall follows:]
 Statement of Hon. Tom Udall, U.S. Senator from the State of New Mexico
    Thank you, Chairwoman Boxer. Thanks for putting a priority on 
addressing our transportation system's needs.
    As we are all aware, our Nation's transportation infrastructure is 
struggling. Many would say that it is even failing. Our transportation 
needs are growing far faster than our transportation investments. This 
is not sustainable. It hurts our economy when employees are late for 
work due to road congestion, or when goods can't get to markets because 
of poor road conditions.
    The quality of our surface transportation system directly impacts 
the quality of our economy--from our major cities to our small rural 
towns. So as we consider this reauthorization, we must ensure that it 
does two things. First, that it maintains our Nation's major highways, 
like interstates 10, 25 and 40, through New Mexico. And second, that it 
maintains smaller roads like those that lead from the New Mexico 
dairies to the interstates, to ensure their products make it safely to 
market. At the same time we must address the safety of all of these 
roads and highways. That means employing best practices to help 
eliminate collisions and reduce injury when they can't be eliminated.
    Equally important, we must recognize the toll of our transportation 
system on our environment. It accounts for nearly one-third of all U.S. 
greenhouse gas emissions. Much can be done to reduce emissions through 
the development of cleaner and more efficient vehicles. But we can also 
look within the transportation system for improvements. Simple changes 
can be made that would improve travel efficiency and reduce emissions. 
Some of those will happen at the Federal level. But many will occur at 
the local level, and this bill should include provisions to encourage 
communities to enact policies that promote efficient travel.
    Finally, we need to make sure that our transportation system is 
designed with community mobility in mind. That it includes sidewalks 
and bike paths wherever possible. And that it provides new options for 
residents who may not have access to a car, cannot drive or choose not 
to. This focus will be a change from transportation bills of the past. 
But I believe it is necessary to ensure that all Americans are able to 
safely travel to school, the doctor or the grocery store.
    Chairwoman Boxer, I look forward to working with you and the 
members of this committee to draft and pass surface transportation 
legislation that addresses the needs of both our metropolitan and our 
rural communities. It is important that we invest the resources 
necessary to ensure that our surface transportation system is well 
maintained, safe, efficient and able to support the needs of our 
growing economy.

    Senator Boxer. Well, thank you so much, everybody, for your 
opening statements.
    Senator Inhofe is trying very hard to get right back but 
you never know when you get down to that floor what happens.
    We are so thrilled. These two are so respectful of one 
another that they will not tell me which one of them wants to 
go first.
    [Laughter.]
    Senator Boxer. So, seriously, I said you two decide and 
they said no, flip a coin. So, in keeping with our Super Bowl 
analogy, we are going to flip a coin. So, why don't you do 
that, Paul, and Mr. Donahue, what do you call it?
    Mr. Donahue. Tails.
    Senator Boxer. What is it? It is heads. Mr. Trumka, you go 
first.

STATEMENT OF RICHARD TRUMKA, PRESIDENT, AMERICAN FEDERATION OF 
    LABOR AND CONGRESS OF INDUSTRIAL ORGANIZATIONS (AFL-CIO)

    Mr. Trumka. Chairman Boxer, Ranking Member Inhofe and 
Members of the Committee, on behalf of the 12 million working 
men and women of the AFL-CIO, I want to thank you for the 
opportunity to appear before you today to discuss the urgent 
need for investing in our country's infrastructure.
    The fact that Tom Donahue and I appear before you today 
does not mean that hell has frozen over or unicorns are now 
roaming the land. To further strain the support structure of 
this building, I would just like to tell you that Tom and I 
this morning have agreed to sit down and talk about ways that 
we can help U.S. manufacturing as well. So, hopefully, at 
another hearing we will be able to come before you again to 
talk about manufacturing.
    Senator Carper. Mr. Trumka, I do not want to interrupt, but 
when I walked up here from the train station this morning I did 
see a pig fly overhead.
    [Laughter.]
    Mr. Trumka. I am not going there.
    [Laughter.]
    Mr. Trumka. The fact that there are many policy areas where 
we have sharp differences, while that is true, we both realize 
that our country needs to step up our investment in America for 
business as well as for working Americans to succeed. That is 
why, following the State of the Union Address, we issued a 
joint statement praising President Obama's call for investing 
in our Nation's infrastructure.
    As you said, quite frankly, there is no more important time 
to be thinking long term, to rebuilding a solid economic 
foundation for our country and investing in good jobs to 
maintain U.S. competitiveness with countries like China, India 
and Germany.
    Chairman Boxer and Ranking Member Inhofe, we agree with you 
about the direct link. In fact, we strongly agree with you, 
about the direct link between a strong transportation 
infrastructure and a strong economy.
    There are nearly 14 million Americans that are unemployed 
in the United States and millions more are underemployed or are 
stuck in part-time jobs or are simply job stopped looking for 
jobs. Our building and construction trade workers have been 
particularly hard hit, with national unemployment levels at 
22.5 percent. Here in the D.C. area, it is just over 40 
percent. It is even higher in some crafts and some areas of the 
country. Our construction union halls that once teamed with 
workers receiving training or heading to construction sites are 
now full of folks sitting on the bench simply waiting for work.
    Strong Federal investment in our transportation system has 
never been more important to support the economy and to create 
and sustain good jobs for U.S. workers than it is right now at 
this very moment.
    The Department of Transportation, as somebody noted, 
estimates that for every $1 billion in Federal highway 
investment, accompanied by the State match, creates or supports 
nearly 35,000 jobs. At the same time, according to the American 
Society of Civil Engineers, we face a $2.2 trillion deficit in 
the 20th Century infrastructure that is crumbling and in 
disrepair, and a near $2 trillion for the 21st Century 
infrastructure that needs to be built, especially in 
transportation, communications, and clean energy that we need 
to have built immediately.
    The latest report card from the American Society of Civil 
Engineers gives our overall infrastructure score a D. Our roads 
received a D, our bridges only slightly better with a C, our 
waterways are a D^ and our rail system a C^. Nowhere, none of 
the areas, do we meet today's global standard. That standard is 
not sitting still, by the way. It continues to move ahead.
    So, the failure to invest in rebuilding our infrastructure 
for the 21st Century will result in lower rates of economic 
growth and thus lower tax revenues. We believe we cannot solve 
our long-term Federal deficit problem if we fail to invest in 
the future. When we are reduced to competing on who can make 
the biggest budget cuts instead of deciding on how to compete 
in the world economy and to secure our future, then I believe 
that we are having the wrong conversation at that point.
    What we want, and what our Nation needs, is a strong 
economy, an economy where business can thrive and where workers 
can build a decent life for themselves, where they can afford a 
place to live, raise a family, take an occasional vacation, pay 
for their children's education and have a dignified retirement. 
In short, Madam Chairman, we want to revive the American Dream 
so that if you work hard, and if you play by all the rules, you 
can succeed in America.
    The example of the postwar boom, when deliberate economic 
policies created broadly shared prosperity that paid enormous 
dividends, shows us the way forward. High levels of public 
investment fueled robust GDP and job growth in the postwar 
period that reduced the debt-to-GDP ratio from more than 100 
percent after the war to less than 30 percent in the 1970s.
    During those decades, we built a transportation system. We 
built highways, bridges, transits, ports and aviation 
infrastructure that was the best in the world. Our economy 
boomed because of it. Good jobs were created and we developed a 
strong middle class.
    But we have simply coasted through the past several decades 
and this neglect will require a Herculean effort to restore our 
competitiveness in the world.
    In his State of the Union Address, President Obama called 
for programs that pave the way for the United States to win the 
future. We strongly agree with that.
    I have not been to China, though I hope to go very soon. 
But I am told that when you fly to Shanghai, you land in a 
brand new airport, you have high-speed broadband access from 
the moment of your landing, and you can get on a high-speed 
rail train in the arrival terminal that will take you directly 
to downtown Shanghai at over 100 miles an hour. Now, that set 
of experiences is simply not available in any city in the 
United States. That is a tragedy.
    It is not available because we invest less than half of 
what Russia does in infrastructure as a percentage of GDP, and 
less than one-third of what Western Europe does. If we want to 
have a great future as a Nation, we cannot sit by and watch the 
future happen elsewhere and not happen here. We can do better 
than this. Our country, quite frankly, deserves better than 
this.
    American wants to work. But the cost of our collective 
inaction is already being felt and it is already hindering 
millions of Americans from finding that work.
    The Texas Transportation Institute's 2010 Urban Mobility 
Report estimates that the extra cost of fuel and the loss of 
productivity from congestion on our highways alone cost our 
Nation $115 billion a year sitting in traffic. So, not only do 
we need a reliable and efficient highway system with expanded 
capacity, but a 21st Century rail system to supplement our 
roadways in moving goods and moving people and in supporting 
commerce and easing congestion.
    That means investing in high-speed rail, freight rail, 
commuter rail and transit systems. To help our transit systems 
deal with their budget crisis, we should allow capital funding 
flexibility to help them cover their operational costs so that 
they do not have to shut down and strand people who depend on 
them to go to work and make a living.
    Investing in infrastructure projects will also boost our 
manufacturing sector. These projects create substantial long-
term employment in manufacturing, design and engineering when 
we use the domestic U.S. supply chain to produce the materials 
that will be needed from concrete, wire, steel and pipes to 
high-speed trains. All of this restores revenues for State and 
local public services struggling with budget holds as well.
    So, the positive impact of investing in infrastructure can 
be maximized by doing a few things to ensure that our 
investments not only are a good value for taxpayers, but create 
good jobs and ensure the jobs are done right and are done by 
the best skilled, trailed and professional work force.
    To build a 21st Century transportation system requires a 
modern, 21st Century workforce. Craft training in 
transportation-related industries has been conducted through 
apprenticeship programs for over a century. Transportation 
investments should complement and support joint labor training, 
management training and apprenticeship programs.
    You see, when the infrastructure investments are supported 
by Federal resources, Congress should require prevailing wages 
and other labor protections, regardless of the funding 
mechanisms used, to ensure that taxpayer funded construction 
and transportation projects do not undermine good jobs and that 
these projects are done by skilled, well-trained local 
workforce and not by low-road employers.
    Congress should implement strong Buy America provisions by 
making sure that we are procuring products such as steel wire 
and other materials from industries and businesses within our 
shores.
    While there is a growing consensus that investing in our 
infrastructure is the first and best thing Congress can do for 
our short-and long-term economic success, there is no such 
consensus on how to fund it at the level that it requires. We 
believe that everything should be on the table when looking at 
funding sources by utilizing innovating ideas as well as 
beefing up revenue streams that currently fund the system.
    Madam Chairman, you have pushed for expanding the role of 
the Transportation Infrastructure Financing and Innovation Act, 
a successful Federal loan and credit enhancement program that 
could do a lot more. The President spoke of the need for an 
Infrastructure Bank. We should reauthorize the Build America 
Bond Program and create or expand other bonding mechanisms. I 
just would emphasize that these tools should supplement, not 
replace, direct Federal investment.
    Wall Street, which would be strengthened with a newer 
infrastructure, should also be asked to kick in. Congress could 
enact a transaction fee, a very small financial speculation tax 
of a half a penny a share so that it is not much of a concern 
to real investors but collectively it could raise more than 
$100 billion a year. The Federal Reserve could allocate a 
portion of its bond authority to buy infrastructure bonds.
    All of these ideas will help. But they alone will not 
generate the robust levels of funding needed for us to stay 
competitive in the global economy. We must rely on, and boost, 
our user fee revenue streams, a key component in addressing our 
huge infrastructure deficit.
    The gas tax has not been raised since 1993. It provides 
diminishing levels of funding and should be raised. Other forms 
of user fee funding mechanisms, such as creating a user fee 
based on vehicle miles traveled, have been discussed.
    It is important to say that when considering funding 
sources, like user fees or any other funding mechanism, we need 
to be sure to pursue a balanced and a fair approach so that we 
do not burden one sector of the population over another. User 
fees can easily have an unfair and disproportionate impact on 
working people if not properly designed.
    Private capital has never, and will never, adequately 
invest in public infrastructure because private investors 
cannot capture the economic gains that infrastructure creates. 
So, it is Federal investment in infrastructure that is the 
necessary catalyst for future economic growth and to enable the 
private sector to effectively compete in a global economy. This 
investment is long overdue.
    Madam Chairman, it is no accident that Tom and I appear 
before this Committee today. Congress, too, needs to come 
together, as it has before, and address the most fundamental 
need of our country, a strong and efficient infrastructure.
    The AFL-CIO stands ready to work with this Congress, this 
Administration, with business and others who want to move the 
country forward into the 21st Century. We say, together, let us 
boldly take on the challenge of investing in America, investing 
in our future, and keeping the American Dream alive for our 
children and for our grandchildren.
    Thank you.
    [The prepared statement of Mr. Trumka follows:]
 Statement of Richard Trumka, President, American Federation of Labor 
                and Congress of Industrial Organizations
    Chairman Boxer, Ranking Member Inhofe, and members of the 
committee: on behalf of the 12 million workers represented by the AFL-
CIO, I thank you for the opportunity to appear before you today to 
discuss the urgent need for investing in our country's infrastructure.
    The fact that Mr. Donohue and I appear before you today does not 
mean that hell has frozen over or unicorns are now roaming the land. 
The fact is, while there are many policy areas where we have sharp 
differences, we both realize that our country needs to step up our 
``Investment in America'' for business as well as working Americans to 
succeed.
    That's why, following the State of the Union address, we issued a 
joint statement praising President Obama's call for investing in our 
Nation's infrastructure.
    Our shared support for infrastructure investment follows many years 
of bipartisan support for exactly the kind of investments we are 
talking about today.
    Quite frankly, there is no more important time to be thinking long 
term, rebuilding a solid economic foundation for our country and 
investing in good jobs to maintain U.S. competitiveness with countries 
like China, India and Germany. I agree with you, Chairman Boxer and 
Ranking Member Inhofe, about the direct link between a strong 
transportation infrastructure and a strong economy.
    There are 13.9 million unemployed workers in the U.S. and millions 
more who are underemployed or stuck in part-time jobs. Our building and 
construction trades workers have been particularly hard hit, with a 
national unemployment level at 22.5 percent and even higher in some 
crafts and areas of the country. Our construction union halls that once 
teemed with workers receiving training or heading to construction sites 
are now full of folks simply waiting for jobs.
    Strong Federal investment in our transportation system has never 
been more important to support the economy and to create and sustain 
good jobs for U.S. workers.
    The Department of Transportation estimates that every $1 billion in 
Federal highway investment, accompanied by the State match, creates or 
supports nearly 35,000 jobs.
    At the same time, according to the American Society of Civil 
Engineers (ASCE), we face a $2.2 trillion deficit in 20th century 
infrastructure that is crumbling and in disrepair, and a broad array of 
21st century infrastructure--especially in transportation, 
communications and clean energy--that is waiting to be built. The 
latest ASCE report gives our overall infrastructure a score of D. Our 
roads received a D, our bridges only slightly better with a C, our 
waterways a D^, and our rail systems a C^. Failure to invest in 
rebuilding our infrastructure for the 21st century will result in lower 
rates of economic growth--and thus lower tax revenues.
    We cannot solve our long-term Federal deficit if we fail to invest 
in the future. When we are reduced to competing on who can make the 
biggest budget cuts, instead of deciding how to compete in the world 
economy and secure our future, then we are having the wrong 
conversation.
    The debate about our future begins and ends concretely with the 
question of jobs and how we invest in our future.
    What we want, and what our nation needs, is a strong economy, an 
economy where business can thrive and workers can build a decent life 
for themselves. Where they can afford a place to live, raise a family, 
take an occasional vacation, pay for their children's education and 
have a dignified retirement. In short, Madam Chairman, we want to 
revive the American Dream, so if you work hard and play by the rules 
you can succeed in America.
    The example of the postwar boom--when deliberate economic policies 
created broadly shared prosperity that paid enormous dividends--shows 
us the way forward. High levels of public investment fueled robust GDP 
and job growth in the postwar period that reduced the debt-to-GDP ratio 
from more than 100 percent after the war to less than 30 percent in the 
1970s.
    During those decades, we built a transportation, highway, bridge, 
transit, port and aviation infrastructure that was the best in the 
world, and our economy boomed. Good jobs were created and we developed 
a strong middle class. But we have simply coasted through the past 
several decades, and this neglect will require a herculean effort to 
restore our competitiveness in the world.
    In his State of the Union Address, President Obama called for 
programs that pave the way for the U.S. to ``Win the Future.'' He said 
the U.S. needs:
    `` . . . to have the fastest, most reliable ways to move people, 
goods and information--from roads and airports to high-speed rail and 
high-speed Internet. We must build a 21st century infrastructure for 
America's businesses to ship their goods, products and ideas anywhere 
in the world. ``
    I agree.
    Rebuilding our nation's crumbling infrastructure will employ 
millions of workers and ensure efficient and timely movement of goods, 
services and people throughout the system. Investments in rail, ports 
and maritime, transit, roads, bridges, airports and air traffic control 
must be made and are desperately needed.
    Nowhere do we meet today's global standard. And that standard is 
not sitting still.
    We are better than this.
    I haven't been to China, though I hope to go soon. But I am told 
that when you fly to Shanghai, you land in a brand new airport, you 
have high-speed broadband access from the moment of your landing and 
you can get on a high-speed train in the arrival terminal that will 
take you directly to downtown Shanghai at over a hundred miles an hour. 
This set of experiences is simply not available in any city in the 
United States.
    We invest less than half what Russia does in infrastructure as a 
percentage of GDP, less than one-third of what Western Europe does.
    If we want to have a great future as a Nation, we cannot sit by and 
watch the future happen elsewhere and not here.
    America wants to work. And the cost of inaction is already being 
felt. The Texas Transportation Institute's 2010 Urban Mobility Report 
estimates that the extra cost of fuel and loss of productivity from 
congestion on our highways alone costs our nation $115 billion a year.
    Not only do we need a reliable and efficient highway system with 
expanded capacity, but a 21st century rail system to supplement our 
roadways in moving goods and people, supporting commerce and easing 
congestion. This means investing in high-speed rail, freight rail, 
commuter rail and transit systems. Many transit authorities are facing 
severe budget crises that are forcing service and job cuts at a time 
when demand for public transit is on the rise. These transit systems 
need help with their operational costs and we urge you to allow them 
the flexibly to use portions of their capital funds for this purpose.
    Investing in infrastructure projects will not only make our country 
more efficient and put the construction sector back to work, but it 
also will boost our manufacturing sector. These projects create 
substantial long-term employment in manufacturing, design and 
engineering when we use the domestic U.S. supply chain to produce the 
materials that will be needed_from concrete, wire, steel and pipes to 
high-speed trains. And all this restores revenues for State and local 
public services struggling with budget holes as well.
    The economic impact of investing in infrastructure can be maximized 
by a doing a few things to ensure our investments not only are a good 
value for taxpayers, but create good jobs, ensure the jobs are done 
right and are done by the best skilled, trained and professional 
workforce.
    Investing in our infrastructure means also investing in our 
workforce. To build a 21st century transportation system requires a 
modem 21st century workforce. Craft training in transportation-related 
industries has been conducted through apprenticeship programs for over 
a century. Indeed, serving an apprenticeship was the original 4-year 
degree. Transportation investments should complement and support joint 
labor-management training and apprenticeship programs, not undermine 
them through investments of precious public dollars in training 
programs that fail to deliver for working people, employers and 
taxpayers.
    When infrastructure investments are supported by Federal resources, 
Congress should require prevailing wages and other labor protections, 
regardless of the funding mechanism used. This will ensure that 
construction and transportation projects create and sustain good jobs 
and that these projects are done by a skilled, well-trained, local 
workforce, not by low-road employers.
    To help workers and businesses in our manufacturing sector receive 
the benefit of our investments, Congress should implement strong ``Buy 
America'' provisions by making sure we are procuring products, such as 
steel wire and other materials, from industries and businesses within 
our shores.
    While there is a growing consensus that investing in our 
infrastructure is the first, best thing Congress can do for our short- 
and long-term economic success, there is no such consensus on how to 
fund it at the level it requires.
    We believe everything should be on the table when looking at 
funding sources--including utilizing innovative ideas, as well as 
beefing up revenue streams that currently fund the system.
    Madam Chair, you have pushed for expanding the role of the 
Transportation Infrastructure Financing and Innovation Act (TIFIA), a 
successful Federal loan and credit enhancement program that could do a 
lot more.
    The President has spoken up for the need for an Infrastructure 
Bank.
    We should reauthorize the Build American Bond program. Other 
bonding mechanisms should be created or expanded to provide for 
private-sector investment in our nation's infrastructure. However, 
these tools should supplement, not replace, direct Federal investment.
    Wall Street, whose businesses would be strengthened with a newer 
infrastructure, should also be asked to kick in. Congress could enact a 
transaction fee, a very small financial speculation tax of 0.05 
percent, so small to be of no concern to any real investor but enough 
to raise more than $100 billion in revenue a year.
    The Federal Reserve could allocate a portion of its bond authority 
to buy infrastructure bonds.
    All of these ideas would help and should be considered, provided 
they contain the provisions necessary to create and sustain good jobs. 
But while these financing mechanisms can supplement our needs, they 
alone will not generate the robust levels of funding needed for us to 
stay competitive in the global economy.
    We must rely on, and boost, our user-fee revenue streams as key 
components in addressing our huge infrastructure deficit.
    The gas tax has not been raised since 1993. It now provides 
diminishing levels of funding and should be raised. There have been 
discussions about creating a user fee based on vehicle miles traveled. 
This, along with other forms of user-fee funding mechanisms, needs to 
be considered.
    We are willing to look at and consider all possible solutions to 
ensure robust levels of funding.
    Public infrastructure, by definition, is the investment in projects 
that produce a broadly healthier economy. Private capital has never and 
will never adequately invest in public goods because private investors 
cannot capture the economic gains infrastructure creates. Investing in 
our nation's infrastructure is a key role of government because it is 
simply something the private sector cannot do on its own.
    Federal investment in infrastructure is the necessary catalyst for 
future economic growth and to enable the private sector to effectively 
compete in the global economy. This investment is long overdue.
    We need a robustly financed infrastructure bill, and we need it 
now.
    Madam Chairman, it's not an accident that Mr. Donohue and I appear 
together before this committee today. It demonstrates that the need and 
urgency of the work to be done is not just recognized by one side of 
the political prism. Congress, too, needs to come together and address 
the most fundamental need of our country, a strong and efficient 
infrastructure.
    The AFL-CIO stands ready to work with this Congress, the 
administration, business and others who want to move our country 
forward into the 21st century. Together, let's boldly take on the 
challenge of investing in America, investing in our future and keeping 
the American Dream alive for our children and our grandchildren.
                                 ______
                                 

Responses by Richard Trumka to Additional Questions from Senator Inhofe
    Question 1. America's interstate system is now over capacity and 
nearing the end of its useful life. Truck traffic is estimated to 
double over the next 30 years. Our infrastructure's needs have been 
detailed in this Committee numerous times. They are staggering to say 
the least. What will be the impact on jobs, businesses and our economic 
competitiveness if we fail to address our nation's crumbling 
infrastructure?
    Response. Failing to address our nation's crumbling infrastructure 
will have devastating effects on our economy. Delays and congestion 
already cost our economy $115 billion a year, and that number is 
steadily climbing. Our future economic well-being depends on an 
efficient and reliable transportation system. We simply cannot compete 
in a global economy by relying on an aging outdated transportation 
system that cannot handle current loads in many areas, let alone in the 
future. As I stated in my testimony, ``if we want to have a great 
future as a Nation, we cannot sit by and watch the future happen 
elsewhere and not here.'' We are not just talking about spending, but 
rather making investments that pay all of us huge dividends in the long 
run. Good jobs and strong businesses rely on a transportation system 
that can meet our needs to move people, commerce, and commodities 
efficiently and reliably.

    Question 2. It is no secret that our needs exceed the resources 
available in the Highway Trust Fund. We are not going to raise the gas 
tax, and finding new revenues for transportation is becoming more of a 
challenge. The President failed to address this in his budget. How do 
you think we can close the gap between the staggering needs and the 
limited recourses available in the Trust Fund?
    Response. The trust funds receipts have become woefully inadequate 
to meet our transportation infrastructure needs. If we rely on existing 
revenue streams, at best we will be able to slow the decline of our 
system. I have said that everything should be on the table when it 
comes to revenue. I stand ready to work with Congress, business, and 
others to find solutions to provide the levels of funding that we need. 
I doubt there is a silver bullet solution to this problem. A variety of 
funding sources will be necessary to get us where we need to be. I 
outlined some ideas in my testimony, and I stand ready to discuss 
others.
                                 ______
                                 

       Responses by Richard Trumka to Additional Questions from 
                           Senator Lautenberg
    Question 1. Just over 2 years ago, President Bush signed into law 
my legislation to reauthorize Amtrak. But now, House Republicans want 
to go back in time and bankrupt our nation's intercity passenger rail 
service. More people, including many business travelers, take the train 
between New York and Washington D.C. than fly. How devastating would it 
be to the business community, particularly in the Northeast, if Amtrak 
were forced to cut services or even shut down?
    Response. Shutting down or even cutting Amtrak service in the 
Northeast Corridor would have a severe impact on the national economy, 
since this congested region produces one fifth of the U.S. GDP. Many 
workers use Amtrak as their primary mode of transportation to and from 
work. Our already congested highways cannot adequately handle their 
current loads during peak hours. Reducing the availability of alternate 
modes of travel, such as Amtrak, would only exacerbate this congestion 
and make it more difficult for business to operate.

    Question 2. Last week, Vice President Biden announced the 
Administration's plans to invest $53 billion over 6 years in high-speed 
rail. At the same time, House Republicans want to slash high-speed rail 
funding and some Republican Governors have given back high-speed rail 
grants. How will bold investments in high-speed rail help the U.S. to 
attract and retain businesses and good jobs?
    Response. There are numerous studies that show our country's 
serious deficiencies in all modes of transportation. We need bold 
investments in infrastructure across the board, including high speed 
rail. These investments will create thousands of good middle class jobs 
in areas of the country where unemployment is high. Construction of 
high-speed rail with prevailing wage requirements will ensure quality 
work at fair pay. The Obama administration's strong commitment to Buy 
America requirements means these investments will spur economic 
investment in our manufacturing sector and create thousands of new 
jobs. Finally, Amtrak and its experienced workforce should be utilized 
to implement the high speed rail initiative. Investment in high speed 
rail is an essential step toward meeting our future needs to move 
people, commodities, and commerce efficiently across the country.

    Question 3. It's estimated that our nation loses $115 billion every 
year in lost time and productivity because of just sitting in traffic. 
How would setting a national freight policy and providing more funds 
for freight projects beyond just air and highways create jobs and 
promote greater productivity?
    Response. Our existing transportation system is already being 
utilized beyond its designed capacity, and this is hurting our economy. 
The rising demand for freight rail puts strains on a system that is in 
dire need of additional investments and improvements. We applaud 
President Obama's focus on multi-modal investments that will help our 
rail sector, make the nation's ports more efficient, and lay the 
foundations for long term economic growth.

    Question 4. Amtrak has proposed building a new ``Gateway Tunnel'' 
under the Hudson River to increase high-speed rail and commuter rail 
service. The current rail tunnels are 100 years old and at capacity. 
New Jersey AFL-CIO President Charles Wowkaneck has said this project 
will ``create thousands of construction jobs'' and ``expand access to 
good paying jobs throughout the region.'' What will it mean for job 
creation in New Jersey and the region if we fail to build a new rail 
tunnel under the Hudson River?
    Response. New Jersey AFL-CIO President Charles Wowkanech is right 
when he says ``the project will create thousands of good paying 
construction jobs in the region.'' Not only do we need to create those 
jobs, but workers need to have efficient and reliable access to where 
the jobs that match their skill sets are located. We have a mobile 
workforce, but workers need to be able to get to their jobs. System 
constraints that keep workers from getting to their job weaken our 
economy and prevent us from reaching our maximum employment and 
economic potential. The decision whether to open new routes to move 
goods, services, and people around the country is a choice between 
growth and stagnation for the local and regional economy.
                                 ______
                                 

      Responses by Richard Trumka to an Additional Question from 
                             Senator Carper
    Question. There was some interesting polling data on transportation 
that appeared in the Washington Post on Monday. 93 percent of voters 
say that improving our country's transportation network is very or 
somewhat important. However, it is clear that Americans do not have 
substantial confidence in the Federal transportation program because 71 
percent of voters oppose an increase in the Federal gas tax. How should 
the transportation reauthorization bill spend existing resources better 
and restore Americans' trust in transportation?
    Response. This poll clearly shows that voters understand the 
transportation infrastructure needs facing our country. They see these 
needs every day as they commute on our crumbling bridges and highways. 
They see the delays and congestion in our transportation system that, 
studies show, cost the economy $115 billion every year. As I said in my 
testimony, if we want to bring our transportation systems up to the 
level we need to compete in the global economy in the 21st century, all 
ideas for robust funding for infrastructure need to be on the table. 
But there is no doubt that people want to make sure their tax dollars 
are invested wisely. That means we need policies in place to ensure 
that infrastructure projects come in on time and on budget and are 
built by a skilled and trained workforce. If we do that, then not only 
can we help get America back to work, but help can also lay the 
foundation for long term economic growth.
                                 ______
                                 

       Responses by Richard Trumka to Additional Questions from 
                            Senator Sessions
    Question 1. The stimulus bill was advertised as being needed to 
``rebuild our crumbling infrastructure.'' However, only about 5 percent 
of the $800 billion in the bill went to infrastructure. Even those 
meager funds have been slow to pay out. As of last year, only 30 
percent had been spent. Do you think that the stimulus bill adequately 
prioritized rebuilding our infrastructure, or should more of the money 
have gone to roads and bridges?
    Response. We thought the Recovery Act was too small to fill the 
hole in our economy caused by the loss of $13 trillion in wealth in 
2008 thanks to the financial crisis and the collapse of the housing 
bubble. Of course we would have liked to see more infrastructure 
investment in the Recovery Act. We would have also liked to see a 
surface transportation bill, like the one proposed by Congressman 
Oberstar, enacted at the same time as the Recovery Act, or shortly 
thereafter.

    Question 2. As you may know, the Administration has proposed $53 
billion for ``high-speed rail'' in its budget submitted to Congress. 
Multiple states, including Wisconsin and Ohio, are pulling out of the 
existing high speed rail program due to concerns about cost overruns. 
Studies by economists and consultants, including Alain Enthoven, 
William Grindley and William Warren, have placed the cost of the 
California line alone at between $62-$213 billion, well above the 
official estimate of $43 billion. The cost of a ticket from San 
Francisco to Los Angeles would likely cost $190 according to the 
studies, which is more than the cost of a plane ticket. Considering 
that the train would also be slower than a plane, it seems dubious that 
people would actually ride the train in the significant numbers. The 
only part of the U.S. where a high-speed train could even begin to make 
economic sense is in the Northeast Corridor. However, Amtrak estimated 
such a train would take 25 years to build and cost $117 billion. Given 
the extremely limited resources of our country, and high-speed rail's 
apparent lack of practicality, do you think that is the wisest use for 
our transportation dollars, or should more be spent on road instead, 
which we know every State needs more of?
    I believe we need to bring our 20th century infrastructure up to 
date in all modes of transportation to help us compete in the 21st 
century. Of course our highway system is crumbling and is being 
utilized beyond its designed capacity in many areas. In coming decades 
we will need to support the needs resulting from population growth and 
the growth of business. That's why we believe in a multi-modal 
transportation system. Rail--whether transit, freight, or high speed 
rail--will have be part of the solution. It is unfortunate that the 
Governors in some states have turned down Federal funding for high 
speed rail. It reminds me of cities that didn't want to be on the 
interstate highway system when it was proposed by the Eisenhower 
administration, then years later had to figure how to get connected to 
it. Clearly, the current amount of revenue coming in to fund our 
transportation system is insufficient even to bring our existing system 
up to date, and unfortunately this funding shortfall pits one mode of 
transportation against another. Our future transportation needs will 
require investment in a multi modal approach if we are to remain a 
strong economic leader in the global economy. Transportation 
infrastructure spending is an investment that, history has shown, will 
pay huge dividends for year into the future.
    Senator Boxer. Thank you very much for that testimony. We 
look forward to hearing from Mr. Donahue next.

  STATEMENT OF THOMAS J. DONAHUE, PRESIDENT AND CEO, THE U.S. 
                      CHAMBER OF COMMERCE

    Mr. Donahue. Chairman Boxer, Ranking Member Inhofe and 
distinguished Members of the Panel, thank you for inviting us 
to be here with you today.
    Rich and I may seem like the oddest couple since Felix and 
Oscar, but the truth is that business and labor have chosen to 
set aside certain differences to focus on achieving shared 
goals such as infrastructure improvement, immigration issues, 
some national defense questions and, I am sure, going forward, 
some questions on how we expand manufacturing. We may not be 
Face Book friends, but we can occasionally find some serious 
common cause, pool our resources and get some things done.
    It underscores a fundamental point about the U.S. Chamber 
and that is we will work with anyone who shares our goals of 
creating jobs, growing the economy and enhancing our 
competitiveness as a Nation. Just last week we were proud to 
host the President at the U.S. Chamber to discuss how we can 
achieve our mutual objectives of trade, education, innovation 
and jobs.
    It is in that spirit of cooperation that I urge the Members 
of the Congress, beyond this Committee, to set aside their 
ideological and partisan differences and unite behind an issue 
that all of us should be able to support, the rebuilding of the 
physical platform that supports our national economy.
    Madam Chairman, I am not going to spend my brief time this 
morning recounting the endless parade of statistics about the 
deteriorating condition of our roads and bridges, our rail and 
air and seaports, our lochs, our dams, our inland waterways and 
our electricity grid. The needs have been studied to death and 
quantified by many organizations including the Chamber itself.
    I would say, however, that my experience in the past as the 
head of the American Trucking Association taught me that the 
only way to ever make these highway bills and these processes 
work is to build an issue where you get urban votes for rural 
roads. Urban votes were the issues that Senator Lautenberg was 
talking about, the questions of transit and other matters, and 
the only way you are going to get enough votes from this 
Congress to do the things we have to do throughout the country 
is by having a broad multi-dimensional program.
    In fact, for years the Chamber has been talking about that 
while also sounding the alarm. We have cited the economic costs 
of congestion, as Rich talked about, we have underscored the 
number of lives lost on the highway every year that do not have 
to be lost, we pointed out the negative impact of an aging 
transportation infrastructure, and we have outlined the yawning 
gap between what is needed to fund a modern system and what we 
are actually investing.
    We have emphasized the hundreds of thousands of good paying 
jobs that could be created if we modernized our highways, 
transit systems, airports, seaports, waterways and rails. Last 
year, our Transportation Performance Index was the first ever 
to establish a direct link between the performance of our 
transportation infrastructure and economic growth.
    We have provided members of this Committee with a copy of 
this unique and important study and I urge you to review it 
because we are going to put two more after it on energy and 
water and other technology issues so we can see what is the 
effect on our global economy, on our competitive position, on 
what is going on with infrastructure.
    The bottom line is this. If we embrace the status quo and 
fail to make the needed investments, the future is not going to 
look very attractive to us. If we do not change course, the 
Index projects that over the next 5 years, the economy could 
forego as much as $336 billion in lost growth as transportation 
networks continue to deteriorate.
    Fortunately, and it is pretty obvious to all of you, there 
is another path. By making the necessary investments and 
implementing needed reforms, we can transform our 
transportation networks, making it far easier for people and 
goods to move quickly and safely across the country and around 
the world.
    So, how do we move forward on rebuilding America? We must 
begin by reauthorizing SAFETEA-LU. We must do so following 
these core principles.
    First, the Congress must ensure Federal transportation 
policy, programs and resources are oriented around our national 
needs. Over the years, these programs have devolved into 
political redistribution of Federal dollars instead of 
thoughtful investments benefiting the Nation as a whole. We 
need to focus our investment for performance that will add to 
long-term economic growth.
    Second, we must adopt strategies, and technologies, by the 
way, that will reduce congestion, improve mobility in urban 
areas, and maximize the use of existing assets. For the average 
motorist, nothing underscores the dilapidated state of our 
infrastructure and its shrinking capacity than widespread 
congestion. The Texas Transportation Institute, which you 
mentioned, just updated the Urban Mobility Report and you heard 
from Rich the tremendous amount of money that is going down a 
rat hole because we are not investing in our infrastructure.
    Third, the bill must help ensure rural connectivity. The 
majority of the United States' natural and agricultural 
resources are located in rural areas. Congress should provide 
Federal investment in small communities and rural areas to 
support connectivity to major economic population centers.
    Madam Chairman, I would mention that years ago when I ran 
the truckers, lots of people in California were working all the 
time on how you get more of what you sent to Washington back. I 
said at a meeting out there once, if we do not build some roads 
in Las Vegas and through Nevada, you are never going to get out 
of Southern California. That is the thing that we have to 
explain to people. You might have huge economic centers around 
this country, but they are connected by major rural areas and 
we have to invest in all of those locations.
    Fourth, we believe that Congress should develop a 
comprehensive freight program to ensure adequate capacity, 
reduce congestion, and increase through put at key highway, 
rail, waterway and intermodal choke points, all national 
infrastructure. The growth in international trade, oh, and, by 
the way, domestic trade, is overwhelming intermodal freight 
capacity and it is only going to get worse. The Federal 
Government currently does not have a comprehensive plan to 
accommodate and support existing and forecast freight flows. It 
needs one now.
    Fifth, we believe the Congress and the Administration must 
maximize the use of existing infrastructure and streamline 
project delivery for new infrastructure. Better strategies and 
the smart use of technology can help us get the biggest bang 
from our existing buck. That is just as true for nuclear power 
facilities as it is for rails, bridges, ports and most of our 
infrastructure. That is why we urge this Committee to ensure 
that the Nuclear Regulatory Commission is properly re-licensing 
its existing plants without further delay.
    Speaking of licensing, our citing and permitting process 
for new infrastructure is well beyond deeply flawed. I mean, we 
are excited that we have new ways to do this and we are cutting 
the time. You wonder why the money that was put aside for 
stimulus could not have been put to work with shovel ready 
projects. We have plenty of shovel ready projects. We do not 
have any permit ready projects. There is a whole industry in 
this country that takes years and years and years until we 
finally go build a road or fix a bridge. Quite frankly, we 
could save a hell of lot of money and build a lot of 
infrastructure if we just fixed that.
    Put simply, it takes too damned long to build anything in 
this country. The result is inefficiencies across the system, 
increased project costs and trouble with financing. Who is 
going to invest in a 30 year project? They want to know when it 
is going to get done.
    Finally, the bill's guiding star must always be safety. It 
is a national disgrace that 34,000 Americans die on our 
highways every year or 100 people every day. We can do better.
    Let me say a word about funding. I want to say, Rich, thank 
you for starting. I am not sure that I am going to jump up and 
down and suggest the transaction tax because you should know 
money goes where it is welcomed and it may end up in Hong Kong 
tomorrow morning because it will not pay a tax. But I really 
think that you raised the issue. That is the big question. How 
do we pay for it?
    There needs to be a vigorous dialog on funding and 
financing. But first we have to agree on the direction in which 
we are going. We will soon enough get to how much will it cost 
and how do we pay for it. So, I would simply say everyone needs 
to keep an open mind.
    I am well aware of the fiscal constraints facing the 
Congress, the battles that are going to take place here. But 
the arguments have been made that this money returns on its 
investment. We have to avoid cutting off our nose to spite our 
face. Without proper investment and attention to this 
infrastructure, the United States' economic stability, its 
potential for job growth, our competitiveness and our quality 
of life are going to change. So, it is not a time to cut back.
    Now is the time to leverage public resources against 
private investments. There is $180 to $200 billion sitting 
there in the private sector ready to invest in infrastructure 
if we can compress the time, get the projects going and get 
underway.
    For our part, the Chamber and its Americans for 
Transportation Mobility Coalition, which, by the way, involves 
a whole number of labor unions, are ready to work with everyone 
to make this happen.
    Madam Chairman, America astounded the world in the 20th 
Century by building the most advanced, extensive and efficient 
transportation system. As was stated in your own comments, it 
fueled our economic growth, it expanded our horizons, and it 
made us the envy of the world.
    So, it is time from my view, and our citizens believe, it 
is time to go do it again. You have to find the money. We have 
a system right now of user fees that should not be abandoned. 
We are prepared in questions and discussion and following up to 
this to talk about our vigorous support from ways to fund this. 
So it is time for us to get on with it because sufficient, 
smart and judicious investment in our infrastructure is where 
it all begins.
    If you think about our infrastructure, it is this table on 
which we are going to play our Monopoly game of commerce. If we 
do not have it, we are going to pay a horrific price for it.
    Thank you very much for inviting me.
    [The prepared statement of Mr. Donahue follows:]
          Statement of Thomas J. Donohue, President and CEO, 
                        U.S. Chamber of Commerce
    Chairman Boxer, Ranking Member Inhofe, and distinguished Members of 
the Senate Environment and Public Works Committee: thank you for the 
opportunity to be here today to explain the urgency and the importance 
of Federal leadership and investment in highways and public 
transportation. Now is the time to work on a bi-partisan basis to pass 
the legislation that will maintain, modernize, and expand this critical 
surface transportation infrastructure: reauthorization of the Safe, 
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy 
for Users (SAFETEA-LU reauthorization).
    Public and private investment in the economic foundation of the 
United States is critical for long-term economic prosperity. The United 
States' global competitiveness is dependent on construction and 
maintenance of a world class infrastructure. As the President 
recognized in his State of the Union address, lasting jobs grow where 
infrastructure is strong.
    The needs have been studied to death and quantified by many 
organizations including the U.S. Chamber. In fact, for years, the U.S. 
Chamber has been sounding the alarm about our nation's deteriorating 
and underperforming transportation infrastructure.
    We have cited the economic costs of congestion on the ground, in 
the air, and at our ports. We have underscored the number of lives 
needlessly lost to poor roadway conditions. We have pointed out the 
negative impact an aging transportation infrastructure system has on 
our ability to compete globally.
    We have outlined the wide gap between what is needed to fund a 
modern system and what the U.S. is actually investing. We have 
emphasized the hundreds of thousands of good-paying jobs that could be 
created if we modernized our highways, transit systems, airports, 
seaports, waterways, and rails.
    Last year, the Chamber became the first organization ever to 
measure the performance of the transportation system and to make a 
direct link between the performance of transportation infrastructure 
and economic growth.
       is the transportation system working for the u.s. economy
    Last year, using well-respected experts, the Chamber developed a 
way to measure transportation infrastructure performance nationwide and 
in each of the 50 states. This project, called the Transportation 
Performance Index (TPI) shows how well the U.S. transportation system 
is serving the needs of businesses and the overall U.S. economy.
    To build the TPI, we asked businesses, economic development 
experts, and public sector agencies what mattered most when it came to 
transportation infrastructure. They gave us feedback that fell into 
three categories. The first was supply: the availability of 
infrastructure is a key consideration for businesses when deciding 
where to locate their facilities. The second was quality of service: is 
the infrastructure reliable, does it provide predictable service, and 
is it safe? The third category was utilization: can current assets 
sustain future growth? Utilization is a key consideration for companies 
like FedEx and others that look 20 years into the future to inform the 
decisions and investments they make today.
    Based on their input, we identified indicators in each mode of 
transportation, and then weighted and combined them (much like the Dow 
Jones Industrial Index) to give a picture of the transportation 
system's performance.
    From 1990 to 2008 (that last year for which complete, publicly 
available data was available), the TPI increased about 6 percent 
overall. In contrast, U.S. population grew 22 percent, passenger travel 
grew 39 percent, and freight traffic grew 27 percent. Given these 
facts, it is a testimony to business ingenuity that the national 
results are not worse. Businesses work around transportation challenges 
by scheduling deliveries in off-peak hours, implementing flexible 
employee work policies, and substituting information technology for 
transportation services. There are also countless stories of 
transportation infrastructure owners using the engineering equivalent 
of duct tape to hold infrastructure together and crafting creative 
operational strategies to enhance throughput.
    In contrast, as we projected out to 2015, we estimate that the TPI 
is going to decline at a rate of nearly one point per year. We will 
observe more traffic congestion, breakdowns of the inland waterway 
system and delays at airports. We will lose 0.3 percent of Gross 
Domestic Product (GDP) for every one point decline in the TPI, 
translating to $336 billion based on 2008 GDP.
    The Chamber's Transportation Performance Index proves that 
enhancing the performance of transportation infrastructure is a vital 
part of creating sustainable, long-term growth . . . growth our nation 
desperately needs.
        the high cost of underperforming transportation systems
    The TPI tells us that without addressing the transportation 
problems in this country we will undermine economic growth.
    Our national transportation system is critical for long-term 
economic prosperity, supports Americans' high standards of living that 
has driven economic expansion, and is the backbone of our business 
supply chain.
    As the President recognized in the State of the Union address, 
lasting jobs and economic development grow where infrastructure is 
strong. The President said, ``Students of history will remember that 
America is the Nation that built the transcontinental railroad, brought 
electricity to rural communities, and constructed the interstate 
highway system. The permanent jobs created as a result of building the 
transcontinental railroad or the interstate highway system came from 
businesses that opened near a town's new train station or a new off-
ramp.''
    Almost 30 percent of the nation's economic output is totally 
dependent on international trade. As we seek to double exports over the 
next 5 years by exporting to the 95 percent of the world's population 
that lives outside of the United States, our transportation system must 
be up to the task. It will also be critical to our competitive 
advantage as a nation as competitors invest in their own infrastructure 
to compete with the United States.
    Quality transportation infrastructure unleashes competitive 
advantage by leading to lower production costs making U.S. businesses 
more efficient, making the United States a desirable location for new 
and existing businesses, and also making U.S.-produced goods and 
services more competitive in the global economy. However, deteriorating 
infrastructure in the United States may actually be contributing to 
increased costs and decreased efficiency for American businesses 
(Cambridge Systematics, 2008). The consequences of an underperforming 
system are hundreds of billions of dollars annually in wasted fuel, 
lost productivity, avoidable public health costs, and delayed shipments 
of manufacturing inputs, consumer goods and other items critical to the 
underlying growth of our businesses.
    Without smart investment the U.S. infrastructure American 
businesses will to lose ground to major international competitors. 
Recognizing the benefits of well-developed infrastructure, both less-
developed and emerging market competitor countries are preparing their 
transportation systems to move away from producing low-wage goods to 
producing the types of products that require the specialization of 
labor that transportation infrastructure makes possible (Praxis 
Strategy Group and Kotkin, 2010).
    While the United States has maintained its position at the top of 
the overall World Competitiveness Yearbook rankings (IMD, 2010), the 
U.S. sub-ranking for Basic Infrastructure has degraded since 2005. The 
World Economic Forum also performs an annual infrastructure ranking in 
the Global Competitiveness Report. The result is similar: U.S. 
transportation infrastructure is falling behind.
    America's entire transportation infrastructure--roads and rails, 
airports and seaports, inland waterways and airways--the proud legacy 
of generations past, needs repair and replacement as well as expansion 
to handle future growth. To head off this future and have a 
transportation system that supports a 21st century economy, the United 
States needs a high level of investment targeted at improving 
performance across all modes and across the country: we cannot just fix 
a few bottlenecks or address the problems in one city or state.
    Congress has an array of legislative opportunities to tackle our 
transportation challenges. From the analysis of our TPI findings, the 
Chamber believes that formulating policies, programs and investment 
strategies, four items should be on top of the to-do list:
    <bullet>  Get transportation infrastructure to a State of good 
repair.
    <bullet>  Fix congestion today.
    <bullet>  Create capacity for the future by both optimizing of 
systems and building physical capacity.
    <bullet>  Target last mile infrastructure--in particular intermodal 
freight access--and bottlenecks.
  highway and public transportation focus: safetea-lu reauthorization
    Of course, today, we are talking about two aspects of the nation's 
transportation system in particular: the roads and bridges that are an 
essential aspect of supply chains and personal mobility, and the public 
transportation networks that move our employees and America's citizens.
    In November 2008, the Chamber's board of directors approved a set 
of recommendations that describe high-level objectives the business 
community deems necessary for a successful bill.
    Below are selected U.S. Chamber recommendations I would like to 
highlight today (others follow the written testimony):
    Congress must ensure Federal transportation policy, programs, and 
resources are oriented around national needs related to U.S. global 
competitiveness, international trade policies, interstate commerce, 
interstate passenger travel, emergency preparedness, and national 
defense.
    Overall, there is a need to reform and refocus Federal 
transportation policy and programs to better align with national goals 
and priorities. Over the years, the number of Federal aid highway and 
transit programs has expanded creating 108 different funding categories 
varying widely in purpose. Programs--even formula programs--have 
devolved into a political redistribution of Federal dollars.
    As businesses plan for the future the U.S. Government must invest 
with a purpose. There needs to be a way to make thoughtful investments 
in regionally and nationally significant projects. Americans need to 
think strategically as to where these investments go, to create a 
system that creates a competitive advantage for the U.S. economy. For 
example, Canada developed and deployed strategies a national approach 
known as the ``Gateways and Corridors Strategy'' that is a shared 
vision of goods movement with the private sector.
    The scope of activities supported by the Federal programs means 
that Federal dollars can be spent on anything from Interstate bridges 
to city sidewalks, new transit systems to Federal Lands' roads, museums 
to intermodal facilities. The list goes on and on. While there are many 
potential uses of Federal funding, each with a constituency, now more 
than ever--especially when the fiscal environment and knowing that new 
funding is going to be difficult to come by--taxpayers need to have 
faith that the cents per gallon they pay at the pump are being invested 
in high priority transportation projects that will produce better 
transportation system performance and in turn, long-term economic 
development and growth, and permanent jobs.
    Federal programs should continue to emphasize safety and 
maintenance efforts
    Every day on our highways and streets, more than one hundred people 
are killed by fatal crashes. In 2009, more than 33,000 individuals died 
on the roadways and another five million were injured. This number can 
be and must be drastically reduced by making our roads and roadsides 
safer and more forgiving. According to a study by the American Road and 
Transportation Builders Association, in 2006, roadway condition is a 
contributing factor in more than half--52.7 percent--of the nearly 
35,000 American deaths resulting from motor vehicle crashes each year 
and 38 percent of the non-fatal injuries.
    There is a clear national interest in ensuring adequate passenger 
mobility, particularly in large metropolitan areas. Congress should 
develop Federal policy and programs that support congestion mitigation 
and improved mobility in urban areas by providing incentives for the 
adoption of strategies and use of technology that maximize the use of 
existing facilities, supporting public transportation capacity, 
availability and ridership strategies, and highway capacity where 
appropriate.
    Much of America's economic activity is based in metropolitan areas. 
The 100 largest metropolitan regions in the United States account for 
just 12 percent of the land area but contain 65 percent of the 
population, 69 percent of all jobs, and 70 percent of the nation's GDP. 
The largest 100 metropolitan areas also serve the majority of our 
transportation activity, handling 72 percent of all foreign seaport 
tonnage, 79 percent of all U.S. air cargo tonnage, 92 percent of all 
air passenger boardings, and 95 percent of all public transit passenger 
miles traveled.
    Traffic congestion is, quite simply, one of most--if not the most--
vexing and critical problems to address. The authority on the costs of 
congestion, the Texas Transportation Institute, just updated its Urban 
Mobility Report, and the news isn't good. Congestion costs the American 
public $115 billion a year lost in time and wasted fuel, or $808 
dollars out of the pocket of every motorist. There is not a one-size-
fits-all solution to congestion relief. In some places it requires more 
physical highway capacity. In others, technology and smarter 
transportation strategies that increase throughput are the answer. 
Cities in other countries are using innovative management approaches 
including congestion pricing: this is an option that we are open to as 
well. And as you well know, investment in public transportation is 
critical for congestion relief and mobility.
    While the U.S. population is increasingly shifting away from rural 
areas into massive ``megaregions,'' ensuring rural connectivity is a 
vital to the national interest.
    The majority of the United States' natural and agricultural 
resources are located in rural areas. Further, smaller communities must 
build and maintain the full range of infrastructure regardless of 
population size. Congress should ensure improved rural connectivity by 
providing Federal investment in small communities and rural areas to 
support connectivity to major economic and population centers.
    Congress should develop a comprehensive freight program to ensure 
adequate capacity, reduce congestion, and increase throughput at key 
highway, rail, waterway, and intermodal choke points.
    The Federal Government currently does not have a comprehensive plan 
to accommodate existing and forecast freight flow.
    When it comes to goods movement, particularly important is the 
``last mile'' infrastructure that links people and products to their 
final destinations: whether travel is by rail, marine or air 
transportation, or by roads or public transportation itself, without 
the last mile no journey is complete.
    High priority corridors need attention. For example, the LA-1 
corridor is a fragile, two-lane highway and the only artery to 
America's Energy Port--Port Fourchon. It is the critical link between 
the land-side support services and America's domestic energy production 
in the Gulf of Mexico.
    Infrastructure investment also plays a role in speeding border 
crossings. Nearly one-third of all trade on the U.S. Canada border is 
intra-company delivery of input materials, which means that anytime 
delayed at the border lowers the competitiveness of our businesses and 
serves as a tax on the consumer. Furthermore, no one would argue that 
the current border infrastructure was designed for today's traffic 
flows. This has a negative impact on the ability of Customs and Border 
Protection to effectively execute their mission of facilitating 
legitimate trade, and securing our country.
    Given the transportation sector contributes roughly one-third of 
all carbon emissions and is responsible for the consumption of two-
thirds of the nation's petroleum resources, any climate change 
legislation is bound to have significant down-stream ramifications for 
transportation users.
    The Chamber encourages Congress to consider the preservation of 
American jobs and the competitiveness of U.S. industry when devising 
policy. Furthermore, any approach to climate change should be 
international in scope, should promote the accelerated development and 
deployment of greenhouse gas reduction technology, should reduce 
barriers to developing climate-friendly energy sources, and should 
encourage energy conservation and efficiency.
    The Chamber also believes that Congress and the administration can 
do a great deal more to speed up project delivery.
    According to the Federal Highway Administration (FHWA), major 
highway projects take on average about 13 years to get from project 
initiation to completion while project development activities under the 
Federal Transit Administration's (FTA) New Starts program average more 
than 10 years. Delayed project delivery creates inefficiencies across 
the systems, translates into increased project costs, and can undermine 
finance plans. Congress should looking at efforts like the I-35W Bridge 
reconstruction in Minnesota, which took just over a year from start to 
finish, as a model.
    The Federal Government should continue to support research, 
development, and application of improved technologies that improve 
infrastructure design, construction, maintenance, financing, and 
operations, and increase safety and enhance the environmental 
sustainability of the U.S. highway and public transportation systems.
           paying for highway and public transportation needs
    There needs to be a vigorous dialog on funding and financing, but 
first we have to agree on the direction we are going. Too many times in 
the past all of us--elected officials, interests, the media and the 
American people--have started with the questions of ``How much is 
needed?'' ``How much do we have to work with?'' I commend the committee 
for starting with ``What we need, what can we do, and what are the 
benefits?'' We will get soon enough to ``How much will it cost and how 
will we pay for it.''
    So my point on paying for it all is that everyone needs to keep an 
open mind. I am well aware that Members of Congress and the Obama 
administration are faced with difficult fiscal circumstances. It is 
clear that Federal budget and appropriations processes appear dominated 
by discussion of deficit reduction, and Americans expect their leaders 
to make tough choices just as they have for their own households. 
However, without proper investment and attention to our infrastructure, 
the United States' economic stability, potential for job growth, global 
competitiveness and quality of life are all at risk.
    Investments in the nation's highways and public transportation 
systems are a core Federal Government responsibility. For the good of 
our economy Congress must continue to increase investment in our 
infrastructure: now is the wrong time to cut back.
    There should be strong incentives for investment of private sector 
resources and leveraging of public dollars to the greatest extent 
possible. Barriers to private investment including regulations and 
administrative processes that make project delivery take far too long 
should be removed or reformed. Every State should have laws that not 
only allow, but welcome, private investment. I know you are well aware, 
Madam Chairman, of the power that expanding the TIFIA (Transportation 
Infrastructure Finance and Innovation Act) program holds. It is one of 
the best deals around: each dollar of Federal funds can support up to 
$10 in TIFIA credit assistance and leverage $30 in transportation 
infrastructure investment. In fact, I spoke yesterday with Los Angeles 
Mayor Antonio Villaraigosa about his plan to unlock the gridlock in Los 
Angeles with accelerated investments in a suite of public 
transportation projects called 30/10 using TIFIA, and TIFIA could be 
expanded and applied elsewhere in the country. These ideas are just a 
few that can help bring private investment and strategy public dollars.
    Now, all of that said . . . public-private partnerships and lower-
cost Federal credit programs are not substitutes for direct Federal 
investment: they are financing and project delivery tools.
    Although there are many potential tools to provide financing 
assistance, these tools do not actually generate revenue or support 
guaranteed funding levels. By guaranteed funding, I mean the 
predictable, multi-year dollars provided largely by formula to states. 
This is the bread and butter for maintaining and modernizing our 
existing highway and transit infrastructure. Investments in the 
nation's highways and public transportation systems are a core Federal 
Government responsibility. Therefore, Federal resources provided from 
the Highway Trust Fund (HTF) to states should provide stable, certain 
funding over a multi-year period.
                       other transportation needs
    Of course, addressing highways and public needs is not sufficient 
to improve the performance of the nation's transportation system and 
prepare for future demands.
    If the U.S. is going to double exports--and many of those exports 
like grain, aggregates, and coal rely on a reliable inland waterway 
system--we cannot neglect the oldest avenue for goods movement in the 
U.S.--our waterways. The mouth of the Mississippi River needs dredging: 
barge companies are losing $640,000 per day while waiting for the Army 
Corps of Engineers to literally clear a path to the Gulf Coast and to 
the customers around the world waiting for U.S. exports of grain, 
aggregate, and energy products. It takes the Army Corps 20 years to do 
a project, and to make matters worse, Congress dribs and drabs out 
money. For example, a $158 million flood plain project in West Virginia 
is getting appropriations at the rate of $1.5 million per year. This 
approach makes this low-cost form of transportation unreliable and 
gives our competitors in these low margin products a real edge.
    It is past time to prepare for the opening of the Panama Canal in 
2014, but there is still tremendous uncertainty over whether the United 
States will be ready. Intermodal connections at the Port of Norfolk are 
insufficient for offloading that volume of cargo. The Port of Miami--
one of three East Coast ports with Federal authorization to dredge deep 
enough to accommodate Super Post-Panamax ships--must have a Federal 
appropriation to stay on track for dredging and create 33,000 trade-
related jobs.
    When the economy rebounds, the freight rail industry will go back 
to experiencing real capacity shortages. It is important to note that 
America's freight railroads operate almost exclusively over 
infrastructure that they build and maintain with their own private 
funds. From 1980 to 2009 they invested more than 40 cents out of every 
rail revenue dollar to maintain and improve their rail network 
infrastructure and equipment. The freight railroad industry requires a 
balanced, common-sense regulatory system so it will continue making 
record investments in its own capacity. Congress should help build 
future capacity and deal with today's bottlenecks by enacting a freight 
rail investment tax credit to encourage private capital investment.
    The Chamber is pleased to see attention to investment in aircraft 
equipage and air traffic control technologies to expedite the 
transportation to NextGen and add capacity. It will also have the 
benefits of reducing emissions and increasing safety, and we also have 
to address aviation needs on the ground.
    In short, there is a system of transportation networks, and they 
all must function well to support competitiveness.
                             in conclusion
    Today we are not talking about stimulus . . . we are talking about 
growing the economy in a fundamental, ongoing way.
    Delaying investment will not make transportation problems go away. 
Instead, conditions and performance will get worse. Materials, labor, 
and land will get more expensive and our businesses will be less 
competitive. Opportunities to save lives will be missed. Americans are 
already paying dearly for inferior transportation, through lost 
productivity, wasted fuel, and tragically, more crashes.
    There should be no further delay on a multi-year authorization of 
the Federal highway and public transportation programs. The Chamber's 
business members large and small engage in long-term planning that 
relies on assumptions about the economic foundation of our country. 
Passage of a strong highway and public transportation authorization 
proposal with bi-partisan support will help to set the table on which 
these companies and their employees conduct business.
    Madam Chairman and Members of the committee: you understand the 
urgency and importance of getting to work on SAFETEA-LU 
reauthorization. For our part, the Chamber and the Americans for 
Transportation Mobility Coalition is ready to work with you, the AFL-
CIO, and anyone else to move forward with investing in America's 
economy. There is no greater priority than economic growth.
    The bottom line is that the U.S. is missing a huge opportunity to 
ignite economic growth, improve our global competitiveness, and create 
jobs. This is not just ``transportation for transportation's sake.'' 
Without more robust economic growth, the U.S. will not create the 20 
million jobs needed in the next decade to replace those lost during the 
recession and to keep up with a growing workforce, will not have the 
revenue to get the deficit under control, will not have the ability to 
keep pace with global competitors, and will not be able to provide our 
children and grandchildren with a better future. As we emerge from the 
deepest and most painful recession since the Great Depression--and as 
our recovery limps along--it is necessary to tap into every available 
source of economic growth available.
              U.S. Chamber of Commerce Policy Declaration
                 Transportation Infrastructure-General
                                preamble
    It is time to strategically plan and invest in the U.S. 
transportation system. Transportation infrastructure capacity is more 
vital than ever to the success of U.S. industries. A well-designed, 
interconnected transportation network with adequate capacity and 
efficient management has significant economic and social benefits to 
the nation's economy. In order to keep pace with transformations of the 
national and global economies, the U.S. transportation system needs to 
expand, modernize and adapt to the changing and growing needs for 
freight movement and passenger mobility. Long term underinvestment in 
transportation infrastructure is having an increasingly negative effect 
on the ability of the United States and its industries to compete in 
the global economy.
                           policy objectives
    1. Promote the link between sound transportation infrastructure 
development programs and our nation's economic productivity, 
international competitiveness, and quality of life.
    2. Promote increased public and private investment in 
transportation infrastructure in order to maintain and improve economic 
growth, jobs, safety, mobility, and interconnectivity.
    3. Ensure public funding is spent efficiently and effectively at 
the Federal, State and local levels. At the Federal level, priority 
should be given to safety needs, the facilitation ofcommerce and 
passenger mobility.
    4. Encourage the efficient use of existing transportation 
infrastructure, promoting polices and new technologies that will 
maximize freight and passenger mobility, ease congestion,and improve 
safety.
    5. Encourage transportation infrastructure policies consistent with 
energy, environmental and security policies.
                                funding
    1. Government at all levels should make public investments in 
infrastructure at levels commensurate with needs.
    2. Costs of transportation infrastructure should be borne primarily 
by the users of the transportation system. However, funding and 
financing models for transportation infrastructure necessarily will 
vary among and within modes of transportation.
    3. Private investment in transportation infrastructure that 
promotes economic growth, safety, mobility, and interconnectivity 
should be encouraged alongside strong, publicly funded programs.
    4. Whenever possible, the provision of commercial transportation 
services (e.g. trucking, freight rail, and air travel and cargo) should 
be left to private enterprise functioning in a competitive market, and 
the costs of those services should be borne directly by the customers 
of the services through market prices.
                           revenue diversion
    1. Transportation taxes, revenues, and other user fees should be 
reinvested in transportation infrastructure and services.
    2. Costs of non-transportation objectives should not be imposed on 
the transportation system, and Federal transportation infrastructure 
funds should not be conditionally linked to the enforcement of non-
transportation infrastructure mandates.
    3. Transportation trust funds should be maintained as separate and 
distinct accounts for budgetary purposes and budgetary firewalls should 
be maintained.
    4. Transportation trust funds should maintain adequate balances to 
protect against insolvency but should not maintain uncommitted 
surpluses.
                              regulations
    1. The need for additional transportation regulations should be 
balanced with the Nation's needs for improved economic productivity, 
international competitiveness, and quality of life.
    2. In implementing environmental, fuel economy, health, safety, and 
technological feasibility programs that affect transportation, the 
Federal Government should ensure that its standards and other 
regulations are economically practical for industry as well as cost 
effective to consumers.
    3. Government agencies should ensure that regulation does not 
unnecessarily impede or delay the development and deployment of 
innovative products or processes that may improve the quality, 
performance, or durability of our transportation systems.
                               __________
                        U.S. Chamber of Commerce
                 Recommendations to Congress Regarding
                       SAFETEA-LU Reauthorization
          defining the national interest and the federal role
    <bullet>  The U.S. Chamber of Commerce believes that Federal 
transportation policy, programs, and resources should support U.S. 
global competitiveness, international trade policies, interstate 
commerce, interstate passenger travel, emergency preparedness, and 
national defense, which are compelling national interests.
                           policy objectives
    Therefore, the Federal Government bears significant responsibility 
to ensure that efforts advancing the following policy objectives are 
prioritized and funded.
Modernization and Maintenance.
    <bullet>  Highway, transit, and intermodal assets identified as 
being in the national interest should be brought into a State of good 
repair and modernized. Congress should outline a comprehensive plan 
involving Federal, State, local, and private stakeholders to

        <bullet>  define and identify highways, transit, and intermodal 
        assets in the national interest,
        <bullet>  establish performance measures to guide government 
        investment, and
        <bullet>  incorporate technology and safety upgrades, including 
        open standards-based information technology, into 
        modernization, maintenance and preservation activities to the 
        greatest extent possible.
Safety
    The U.S. Chamber supports a continued Federal role in ensuring a 
comprehensive, results-oriented approach to safety through national 
safety goals, performance metrics, and complementary plans to guide 
investment.
    Incentives should be provided for applying best practices and 
advanced safety technologies and equipment.
Freight Mobility
    <bullet>  A national freight transportation program for identifying 
and funding Federal, state, and metropolitan efforts to ensure adequate 
capacity, reduce congestion and increase throughput at key highway, 
rail, waterway and intermodal choke points is needed.
    <bullet>  The program should include a national freight 
transportation plan built on performance measures and should include a 
comprehensive survey of key freight corridors and other assets.
    <bullet>  A national freight transportation plan should incorporate 
the development of new capacity, access routes to major water ports and 
airports, access routes to border crossings and international gateways, 
operational strategies to improve utilization of existing assets, and 
strategic intermodal investments to expedite freight movement.
    <bullet>  The plan should guide government project selection and 
prioritization.
    <bullet>  The program should not dilute other Federal 
transportation priorities.
Urban Mobility
    <bullet>  Federal policy and programs should support congestion 
mitigation and improved mobility in urban areas by
        <bullet>  providing incentives for the adoption of strategies 
        and use of technology that maximize the use of existing 
        facilities,
        <bullet>  supporting public transportation capacity, 
        availability and ridership strategies where appropriate, and
        <bullet>  supporting increased highway capacity where 
        appropriate.
Rural Connectivity
    <bullet>  Federal investment in small communities and rural areas 
should primarily support connectivity to major economic and population 
centers.
    <bullet>  Investment should be guided by national connectivity 
goals, population density thresholds, and standardized measures of 
access.
Environment and Energy
    <bullet>  Our country's energy goals will only be met by a 
commitment to technology innovation and to all types of available 
energy sources.
    <bullet>  Climate change policy choices have major economic 
consequences and should not be made without adequate opportunity for 
debate by lawmakers. Any and all policy decisions relating to the 
control or reduction of greenhouse gas emissions should be based on a 
complete understanding of scientific, economic, and social 
consequences, in order to ensure balanced industrial growth, economic 
progress, high-quality living standards, and a healthy environment.
    <bullet>  Any and all climate change policy decisions must

        <bullet>  preserve American jobs and the competitiveness of 
        U.S. industry,
        <bullet>  provide an international, economy-wide solution, 
        which includes developing nations,
        <bullet>  promote accelerated development and deployment of 
        greenhouse gas reduction technology,
        <bullet>  reduce barriers to developing climate-friendly energy 
        sources, and
        <bullet>  promote energy conservation and efficiency.

    <bullet>  The voluntary use of all forms of public transportation 
that can be demonstrated to be energy efficient and cost-effective 
should be encouraged in a way that does not restrict individual choice 
among competing transportation modes.
    <bullet>  Strategies for improving air quality in regions of the 
country that do not meet Federal standards (e.g., NAAQS nonattainment 
for a criteria pollutant) must recognize the importance of 
technological innovation and modernization of the economic base in 
achieving environmental quality, and must not place an undue burden on 
economic development.
                              methodology
Program Consolidation and Accountability
    <bullet>  Federal programs should be reorganized and consolidated 
around specific, overarching national objectives to ensure that 
planning is more comprehensive and projects reflect the Federal role.
    <bullet>  Project approval and funding should be linked to economic 
benefits and performance-based outcomes.
    <bullet>  Performance-based outcomes should be achievable and cost-
effective for consumers and economically practical and feasible for 
industry.
    <bullet>  States and localities should be allowed to pursue 
solutions that work best locally to meet their unique transportation 
needs. If those solutions are implemented with Federal funding, they 
should measurably contribute to addressing national interests.
Research and Development
    <bullet>  The Federal Government should support research, 
development, and application of improved technologies that
        <bullet>  improve infrastructure design, construction, 
        maintenance, financing, and operations, and
        <bullet>  increase safety and enhance the environmental 
        sustainability of the U.S. highway and public transportation 
        systems.
Project Delivery
    <bullet>  The Federal Government should improve and make consistent 
the project review and approval process for all modal investments to 
ensure the completion of transportation infrastructure improvements in 
a timely and environmentally sound manner.
    <bullet>  The Federal Government must shorten the time it takes to 
complete environmental reviews and must support other measures to speed 
project delivery once they clear environmental review.
    <bullet>  The Federal Government should encourage private sector 
involvement to help expedite project delivery.
    <bullet>  Life cycle costs should be utilized in Federal-aid 
projects where appropriate.
                                funding
Federal Funding Levels
    <bullet>  Funding levels should be directly tied to fulfilling the 
Federal responsibility in meeting the national interest.
    <bullet>  Current revenue streams are not sufficient to maintain 
Federal-aid highway and transit programs at existing service levels, 
nor will they be sufficient to meet projected future highway and 
transit needs.
    <bullet>  Additional revenues are required, and the U.S. Chamber 
will evaluate funding levels in relation to proposed policies and 
programs that support the national interest and reflect an appropriate 
Federal role.
Federal Revenue Principles
    <bullet>  A user fee-based trust fund, protected by budgetary 
firewalls, should be the backbone of Federal highway and public 
transportation investment.
    <bullet>  Funding guarantees, which provide support for stable, 
long-term capital planning, should be maintained. General funds 
supporting transit programs should be guaranteed.
    <bullet>  Unobligated revenues should not be allowed to accumulate 
in the Highway Trust Fund beyond amounts necessary to meet cash-flow 
requirements.
    <bullet>  Revenue mechanisms should be structured to ensure that 
the purchasing power of revenue sources keeps pace with inflation.
    <bullet>  Congress should develop a road map for a sustainable 
revenue model that maintains an equitable distribution across all 
system users, provides adequate and predictable revenue, and is 
administrable with minimal overhead.
    <bullet>  Funding allocations from the Highway Trust Fund should be 
strictly assigned only to transportation purposes.
Private Investment and Financing
    <bullet>  The Federal Government should encourage project financing 
and delivery approaches that attract private investment.
    <bullet>  The Federal Government should expand its role as a 
financing partner and a lender of last resort.
    <bullet>  Congress should lift the cap on private activity bonds 
for highway and transit infrastructure.
Earmark Reform
    <bullet>  Earmarks can undermine the integrity of Federal 
transportation programs and should be limited if they are not related 
to, or are only tangentially related to, transportation infrastructure,

        <bullet>  do not address the goals of Federal transportation 
        policy, and
        <bullet>  have limited or no national benefit.

    <bullet>  Any funds earmarked for specific projects in the next 
authorization should be obligated during the authorization period.
Conditions for Chamber Support of Increased User Fees
    <bullet>  The U.S. Chamber would support an increase in user fees 
if Congress advances a reauthorization bill that realistically achieves 
the following:

        <bullet>  A refined Federal role, oriented to achieve national 
        interests.
        <bullet>  Significant program reform emphasizing performance 
        management and accountability to ensure that costs are 
        minimized and benefits are maximized.
        <bullet>  Improvement in the integrity of user fees by limiting 
        earmarks and non-transportation spending.
        <bullet>  New opportunities to access private sector funding 
        sources.
        <bullet>  The establishment of a road map for a sustainable 
        revenue.

    Senator Boxer. Well, let me say it to both of you. You were 
eloquent and to the point, and it is refreshing for us to see 
you sitting side-by-side. I am excited that you are going to 
work together on a manufacturing initiative.
    I can only just say, from my perspective, that you really 
are a hope for us because there are some great divides on so 
many issues around here and if we can make you two the symbol 
of coming together because the country, not to steal from your 
name, the country trumps politics, that is where we have to go.
    There is a very important issue coming our way. I do not 
know if colleagues are aware of this. When we passed the HIRE 
Act, it took care of funding for quite a ways out, until, I 
think, September 2012, because we were all so nervous about 
losing funding. However, the authorization for all the projects 
runs out on March 4th. So, we have, right in front of our face 
we have a potential crisis. If we do not reauthorize, then 
everything will stop for those projects. So, obviously, this is 
a real problem.
    Now, the good news is that Senator Inhofe, Congressman Mica 
and I all agree we should just have a clean authorization and 
get that out of the way and work out this new 6 year bill. 
There are some who may want to cut and change the 
authorization. This would be awful since we have already paid 
for this. We have it figured out.
    I guess what I would like to get you both on the record is 
this question. What would be the impact on the construction 
industry if the funding for that authorization were to be cut 
or delayed? Either one can answer first.
    Mr. Trumka. Devastating. I mean, projects that are started, 
people would be laid off, local economies would be hurt, a 
nascent recovery that we are talking about trying to take root, 
it would have a setback, it could push us back toward 
recession. It would be a tragedy for the country and for 
thousands and thousands and thousands of workers and small 
businesses.
    Senator Boxer. OK. Mr. Donahue, do you agree?
    Mr. Donahue. It might be worse than that. You know, we are 
not, we are some period of time away before we get a lot of 
people back working in the housing industry. You showed the 
pictures of all of the football stadiums. One of the reasons, 
collateral reasons, to push hard on the question of 
infrastructure construction is because that is a place a lot of 
these people can go work.
    Senator Boxer. Right.
    Mr. Donahue. Now, remember how this works. Fifty percent of 
the money we spend on infrastructure, roads and bridges and so 
on, comes from the Federal Government, 25 percent from the 
State, and 25 percent from the NPOs and the local. By the way, 
they are all integrated. So, it is not a matter that, you know, 
the Federal Government decides when they are going to do this, 
when they are going to authorize and when they are going to 
send it, it is all tied in. Where is the State's money coming 
from, where is the local money coming?
    That is why the people in Los Angeles have set up their own 
deal. They have taxed themselves so that they can go out and 
put together a program with their local money and do four or 
five major infrastructure projects in a way that they figured 
out how to pay for, they figured out how to get investment in 
it.
    But the whole integrated system falls apart when one of the 
people, one of the participants, does not play. It is not just 
a matter that the Federal money is not there, a lot of the 
State money which was going to be put together with Federal 
money to build something, they are not, you are not going to 
find a Governor that is going to put that money up if he does 
not know where the Federal money is.
    This, this system, is under great stress right now. I 
understand all the politics about this. You know, nobody wants 
to talk about user fees because they are taxes. Well, we have 
been doing this since Dwight Eisenhower and we better get, if 
you have another way, I am glad to hear about it but I have not 
seen it. We should not get rid of that.
    We should reauthorize this whole bill. My own view is, it 
is not so difficult to up the funding in something you have. It 
is very, very difficult to create new funding right now. I hope 
that we all have the courage, particularly if you could think 
about the fact that both of us here would support a rational 
movement forward on authorization, on getting rid of the red 
tape that slows this down, and on acquiring incremental 
resources to do this now.
    Senator Boxer. Well, thank you.
    My understanding is that in 20 minutes the House Committee 
is meeting to do a clean reauthorization and extension of our 
bill. This is very critical because, again, we cannot afford to 
send a signal to the Governors, as you point out, as both of 
you point out, that this would be a disaster.
    I just have one last question. Looking over funding, as you 
point out, is very, very difficult. I believe there is an 
argument to be made that people who use the roads should pay 
for them.
    Now, the good news is the truckers have come forward and 
they said look, we are willing to take a hike in our user fee, 
the Diesel Tax, if others come forward. They have agreed to 
come forward. God bless them. Nobody else really has done it.
    So, I wanted to ask you about something I think is an 
interesting user fee. Forty percent of the imports that come 
into this country come into the Port of LA/Long Beach and then 
they get distributed throughout the country. They are obviously 
coming from Asia and they get distributed through the net, 
whether they are going to Tulsa, where are they going in 
Nebraska, where are they going into New Jersey or Oregon or 
Vermont. They are going to go across our great Nation in big 
heavy trucks. Big, heavy trucks.
    We could put a very reasonable user fee on those 
containers. We are looking at different levels and say, listen, 
you are bringing your goods in. If we are going to deliver 
them, we have to have roads to deliver them on. So, are you 
both open, without knowing the, I do not expect you to say yes 
or no, but would you be open to working with us on developing 
something like this?
    Mr. Donahue. I know a little bit about this because, as you 
know, I used to run the truckers and I am on the board of Union 
Pacific Railroad and we move a lot of that stuff around. My own 
view, without speaking for the Chamber right now, my own view 
is that 40 percent would dissipate in a hurry if you put a user 
fee on the containers.
    I am not, you know, depending on what it was, because when 
you are bringing stuff from Asia, you have a lot of options. 
The options are Canada, there is Mexico, there is Seattle, 
there is, you know, it is a, I have been through this in a 
significant manner from a business point of view. You know, it 
is the same thing, Rich and I will have a conversation about a 
transaction tax because of the ability of money to move so 
quickly to other places around the world.
    I think people would begin to talk about creative ways of 
doing this going forward, including private investment, as soon 
as we do what we can do right now. I mean, the bottom line is 
simple. We have a system. We have not for 17 years increased 
the Federal Fuel Tax.
    Let me tell you about those big trucks you were just 
talking about. In that 17 years, they have more than doubled 
their miles per gallon. So, you are taking an 80,000 pound 
truck that has doubled its miles per gallon in 17 years and it 
is now paying half of what it paid before.
    By the way, the reason the truckers, and they are really 
good people, I have great respect for them, the reason they are 
willing to go for a fuel tax, and the only way they will do it, 
is if you are going to put it in the roads and bridges and to 
improvements because that is what costs them money. Slow downs, 
congestion, poor roads is costing truckers a fortune.
    Senator Boxer. So, just to sum up your view, you believe if 
we were to have a user fee on a container paid for by the 
Chinese company that is shipping it----
    Mr. Donahue. It would be paid for by the local company that 
it is bringing it in. The Chinese would not pay it.
    Senator Boxer. Well, not necessarily. Maybe there is 
another way to do it. But let us just say we put it on the 
importer as a fee that we think could pass muster at the WTO 
because it is a user fee. You are saying that those importers 
will go elsewhere. That is your thought.
    Mr. Donahue. I did not say they all would. I think some 
would in a minute. By the way, our exports to China are 
increasing in an explosive way. If you put a fee coming this 
way, they will put a fee going that way. It is just more and 
more costs.
    What we have is a system. You get into a big fight every 
time you, I do not mean you, but every time you get a creative 
way to do something. There is some of them we would support. 
But I do not want to go anywhere until we finally say, look, we 
had a great system, we have a great system, and we are now 
getting half the money we should from cars and trucks because 
of their efficiency and there has not been an increase in 17 
years. This is a pretty simple equation.
    Senator Boxer. So, you like Tom Carper's idea better than a 
cargo fee?
    Mr. Donahue. Madam Chairman, you should know that there are 
people behind me that are staring right through my back. You 
know, there are folks at the Chamber that talk about all our 
members and what they think. I think I know a lot about this. I 
have spent my life in transportation and logistics and I am 
telling you, we need to reauthorize this thing in a hurry for 
all the reasons that we have talked about, all the people we 
need to put to work, and we need to put some more money in it.
    It would be a lifetime's effort to go out and try to put in 
some of these things, creative things, because of all of the 
other committees of jurisdiction and all that. You control the 
ability to put the money in here and get it reauthorized.
    Senator Boxer. It would actually be the Finance Committee 
that would have to do it. So, Tom Carper's idea of raising the 
gas tax one penny that he did with Voinovich a month for 24 
months, that idea you like better, I am just trying to get it 
on the record, than----
    Mr. Donahue. I like, I would like an appropriate increase 
in the Federal Fuel Tax, recognizing that you are collecting 
half of what you used to. Now whether it is a penny a month and 
all that, I could then immediately jump in and say maybe we 
ought to go ask the people that run all the gasoline pumps and 
everything how much it would cost to increase it every month or 
could we increase it every 6 months or something, it would 
probably save a lot of money.
    Senator Boxer. I understand. I understand your point. Some 
people drive electric cars and they do not pay any, anything, 
and they are using, and we love that there is no exhaust coming 
out but they are not paying anything for the roads. So that is 
why the vehicle miles traveled that Richard Trumka talked about 
is interesting. I do not like the idea of putting some spy 
thing in people's cars to do it. I would do it on an honest 
basis where you just every year you pay your registration and 
you pay a fee for vehicle miles traveled without having, just 
do it on the honor system.
    But I hear your point, Mr. Donahue. The reason I was 
focused in on you on this is because you made a point I frankly 
did not think that much about before which is that we have a 
system in place and to create a new system is controversial and 
we do not know the unintended consequences. That is basically 
your point.
    Mr. Donahue. Yes. My point is that it is a fair system that 
we have in place. I do agree with Rich that some people are 
affected in any tax of that type, but I think everybody agreed 
if we can maybe figure out something on that. But we need to 
get the money for infrastructure, and there are a lot of, you 
know, private money, banks, all this stuff everybody is talking 
about, I will look at all of those. But the bottom line is we 
ought to, 17 years is a long time. The States have all stepped 
up to it.
    Senator Boxer. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Well, first of all, I do apologize, particularly to Mr. 
Trumka. I had to go and introduce a bill. I missed the first 
half of your remarks. However, the second half was very 
interesting. You specifically came up with ideas that I think 
are worth pursuing in terms of the big problem we have here. We 
can talk about all of these other things, but somehow we are 
going to have to fund it.
    I also want to compliment the Chairman. When she used this 
visual of the 20 stadiums, I happened to be in that stadium 
doing the coin toss and I looked around at the 100,000 people, 
and sometimes you need that kind of visual to really know how 
many people are out of work, how many people could be driving 
this machine instead of riding on it right now.
    So, I would also say that a lot of times we get in these 
things with people from New Jersey and some of the more mature 
States back there and they think that they have a bigger 
problem than we do. That is not true. Because when we started 
this thing, we started the Highway Trust Fund, we started it 
back in Eisenhower's time. That is the stuff in my State of 
Oklahoma that is rotting out right now.
    Just the other day we had a lady, a mother of two small 
children, in Oklahoma City, driving and a bridge, something 
this big, it killed her. That could have been avoided. We know 
which of these structures have passed their life. Oklahoma was, 
at the last, I think it is Missouri and Oklahoma shift back and 
forth as to the poor condition of their bridges. So, it is not 
just in the industrialized East, it is all over this country.
    I would say also that several of my colleagues talked about 
when they were Mayor and so forth. When I was Mayor, I took the 
hard position and passed, actually passed, a sales tax increase 
for infrastructure because no one else would do it.
    Now, just on the Highway Trust Fund, I want to recall to 
your memory what happened back in 1998. In 1998, we always had 
surpluses in that. That was before we had all of the 
hitchhikers climbing on. I remember when Bill Clinton was 
President of the United States, he actually took $9 billion out 
of the Highway Trust Fund and I ended up being the only 
Republican to vote against the Balanced Budget Act of 1998 
because of that.
    Now, to me that is a moral issue. You know, we tell these 
people they are paying this tax and that money is going to go 
to doing the infrastructure. We ought to be honest with that.
    I compliment you, Mr. Donahue, in bringing up the 
streamlining issue. That is something nobody wants to talk 
about. But I would like to somehow get that between my staff 
and your staff to kind of put a tag on that so we know what 
this is really costing us in terms of all of the hoops that you 
have to go through to get something done.
    Let me just say that, well, I will start with you, Mr. 
Donahue. You made the statement that between $180 and $200 
billing is sitting out there. Where is that sitting right now?
    Mr. Donahue. It is private capital, both domestic and 
international, that has been put aside in investment funds that 
are prepared to invest in infrastructure projects.
    By the way, there is a lot of capital lying around. You 
know, this is a great investment. If you make a deal with your 
State, and they are going to put up a certain percentage of the 
investment in some new project, and you have a means of 
repaying it, and you will pay it back over 30 years, it is a 
great investment.
    There are more and more funds putting themselves together 
to invest in infrastructure projects, even some of them buying 
roads. I had to try and deal with some people that were all 
upset about that because somebody had bought a road from 
another country. I said, they cannot take it home.
    [Laughter.]
    Senator Inhofe. Yes, the point you make is good. You show 
that it is a good investment. Who is investing in these? We 
have Saudi Arabia, we have all these countries that are 
investing in our infrastructure over here and it is because it 
is a good deal. They are not doing it because they love 
America. They are doing it because it is a good return.
    Mr. Donahue. People that have a lot of money to invest, 
national investment funds, people in private equity and the 
hedge fund business that have lots and lots of money, Senator 
understands about a lot of this, to invest, they are looking 
around for, you know, a certain percentage of their investments 
they want very, very structured, assured returns. Then some of 
their investments they want to take a more risky approach. This 
is a sure, good deal and as soon as we get it going, as soon as 
you start working that behind a solid Federal/State program, 
there will be a lot more money in this system.
    Senator Inhofe. Well, then I would go further to say that, 
to show you how all philosophies are joining together on this, 
I had a long visit with Senator Kerry the other day. He was 
talking about his Infrastructure Bank ideas, which I, there is 
some merit to something where there is a, in this case, his 
provides for not grants but loans. So, I think it is something 
that is much more sellable.
    I would ask you, Mr. Trumka, have you had that presentation 
yet? I know that TIFIA has worked. It is too small. But this is 
a way of maybe getting, biting into the amount that we would 
have to pay for a 6-year, the kind of bill that we would need 
to have. Have you had chance to look at some of those ideas?
    Mr. Trumka. We have and we are interested in working with 
you to make them work. One other thing that I might add is the 
labor movement right now is collectively trying to put together 
a $100 billion fund from our pension funds to do infrastructure 
investment because of what you said. The return can be good, 
but we create jobs in the process, we help the country out. It 
is a three-fer for us, so we are working very diligently on 
that to try to get it done from public funds, private funds, 
Taft-Hartley funds that we are working together with.
    Senator Inhofe. I appreciate that. The last thing I would 
mention, Madam Chairman, you got very close to asking the same 
question, but the cost of not having a program in place, where 
you have 6 years.
    Now, I do come from the private sector, as you know. In 
fact, one of the reasons I ran for Congress is the over-
regulation of the private sector. But anyway, as I watch these 
things that are taking place right now, I really believe that 
we have the dynamics here to get in there and to look at some 
things that have not been looked at before. In my State of 
Oklahoma, people do not know this, we are actually navigable in 
Oklahoma. Did you know that? Not many people do. That is why 
intermodal is important, and all that. But we have to do this.
    The question that I thought the Chairman was going to get 
to was something that she and I have faced. The last time was 
the last day of the fiscal year before this last fiscal year on 
the floor of the Senate as it neared midnight. We, I said to 
her, if you can go over there and pick up, we needed about $12 
billion at that time to come up with a 12-month extension 
instead of this month-by-month thing, we came very close to 
getting that done. I have to admit it was the Republicans, not 
the Democrats, that killed that idea. We have failed in that 
respect.
    The cost of going from short period to short period, as 
opposed to getting in there and knowing what you are going to 
be able to spend over the next 6 years, organize your labor so 
that it is going to be there and the ability of the contractors 
to have their, it is all coordinated, someday I would like to 
either comment on that now but put down, for the record, the 
costs of month-to-month versus something that is a 5 or 6 year 
reauthorization bill.
    Mr. Trumka. Actually, we would prefer to see a 10-year 
reauthorization because----
    Senator Inhofe. I am with you.
    Mr. Trumka. Because if we could do that, we could begin to 
crowd more private funds into this and augment what we are 
doing. If there is a way we can work together to stretch that 
out, I think both of us would be willing to work on that.
    Mr. Donahue. The thing, because it was interesting, Madam 
Chairman, to look at the participants today, people that have 
been Governors and Mayors, and when you go to talk to Governors 
and Mayors now and say, oh, well, we are going to have a 3-
month program or we are not sure when we are going to authorize 
it or it is going to be, they throw their hands up because they 
cannot risk their 25 percent unless they know that the Federal 
guys are going to keep doing what they are supposed to be 
doing.
    I just, you know, maybe in the process of doing this it 
would be a good idea to get, in fact we will help you do this 
and you can, too, to get a whole lot of Mayors and Governors to 
communicate here and say look, this is what is keeping us from 
hiring more people.
    Senator Inhofe. Thank you.
    Mr. Donahue. You are asking all of the right questions.
    Senator Boxer. Well, thank you.
    Senator Lautenberg.
    Senator Lautenberg. Very interesting. As we listen to one 
another, this thing gets in my way.
    [Laughter.]
    Senator Lautenberg. Take my wife's word for it. I am not 
hard to hear.
    Ben Franklin once said, ``New Jersey is like a beer barrel, 
tapped at both ends with all the live beer running between 
Philadelphia and New York.'' Well, we do not like the 
characterization. But it is kind of replicated by the volume of 
traffic that goes from Washington to New York, up to Boston, I 
mean, the whole Northeast Corridor. We are a thoroughfare and 
the wear and tear that is on our roads is hardly made up for by 
the tolls that are paid. It is the same tolls that people who 
live and work in New Jersey have paid to go to work everyday.
    What we have seen, and it is, I listened very carefully to 
what you said, that there is all this capital around waiting 
for the first card, as I see it, to be played by government. 
But it ultimately has to be paid for by the users, be they cars 
or trucks. I think if we could redesign our system, we would 
have separate roads for trucks and separate passageways for 
cars. It would be, that must have been discussed ad infinitum 
when you were in the----
    Mr. Donahue. Do you not remember that we exchanged on that 
a couple of times? I would be careful about offering the trucks 
that opportunity. They will take it.
    [Laughter.]
    Mr. Donahue. Then the cars will have to pay for their 
roads.
    It is interesting, but you are on the right track. The 
people that have money to invest in this issue, from all 
different sources, and different ways of eventually collecting 
it, are all looking at one thing. Are you in the game or not?
    If at 50 percent, the Federal Highway Trust Fund started by 
Dwight Eisenhower, remember, it was a National Defense Highway 
System, if the Federal Government, and they collect the money 
from the users for the most part, if the Federal Government is 
going to take a long-term look at this, finally get over these 
short-term extensions, and authorize the Federal Highway Trust 
Fund, everything else will follow. In my opinion.
    Senator Lautenberg. Well, that fact is that everybody here 
is saluting the modal transportation opportunities. Obviously, 
rail is a giant part of that. When I look here, President Bush 
signed into law legislation I wrote to reauthorize Amtrak. Now 
the House, the Republicans, want to go back in time and 
bankrupt our Nation's intercity passenger rail service.
    More people, including business travelers, take the train 
now between New York and Washington rather than fly. The trains 
are crowded. So, we have to invest in expanding the capacity of 
the rail service in that corridor. But here we see an attitude 
that says, stop giving Amtrak any money. How devastating would 
it be to the business community, particularly in the Northeast 
or the heavy traffic areas, if Amtrak were forced to cut down 
services and cut services, shut down?
    Mr. Donahue. Is that a question?
    Senator Lautenberg. Yes, it is a question.
    Mr. Donahue. If you take the last part of your comment, 
which I think was when you said particularly in the heavy 
corridors which would be in the Northeast and on the California 
Coast and so on, I think it would be a serious problem, as it 
would be with transit commuter rail in California and New York 
and other places. I am not sure I would agree with the same 
thing with going to Montana or something like that with four 
guys on the train, but that is just my own personal view. I 
would associate the point you made that in the congested, 
heavily used corridors it would be a mistake to take away that 
option.
    Senator Lautenberg. You know, the funniest thing is that we 
are paying more for gasoline today. Right here in Washington I 
saw gas at $4.20 a gallon, one place in a very particular area. 
The worst part is that the drivers, the taxpayers, have been 
paying the higher prices and it is going into the pockets of 
sheiks or into the companies. You know my business background. 
Profits are OK. They are good. But when you see the kind of 
money that is being made by the oil companies, and that is not 
going into the roads, it is going into the yield on investment.
    It is shocking when you think about the price of gasoline 
in France and the U.K. and places like that is much closer to 
paying for the service they have, the roads, I think, are much 
better and in most of these places the cars are smaller and 
there is better, more efficient use of gasoline.
    But America is not designed like that. We are between the 
oil companies, the automobile companies and the big, huge job 
markets there. We have agreed to keeping the automobile as the 
principle mode of transportation. It is very hard to break the 
habit.
    I do not know. We have to get this done. We just had a 
meeting with the Governor of New Jersey and the New Jersey 
Delegation in terms of getting another tunnel, expanding 
capacity of Amtrak, another tunnel across the Hudson River. It 
has to be because otherwise, well, mention was made of spending 
your life someplace. Well, I spend half my life when I am in 
New Jersey in traffic and it is not fun, you know, between the 
toxic fumes, the delays and the cost and cash going to the 
people that are not our friends. We are in a hell of a spot.
    We want to do this thing. The question is how we get it 
funded. I went to the private sector to see if there is any 
interest in investing in rail service there and there is 
interest, a lot of interest. But they are going to want a yield 
on it and part of what we have to worry about is who makes the 
decision about raising the tolls, who makes the decision about 
raising the rail tickets that have to be purchased.
    So, thanks very much to each of you. It is an enlightening 
experience to see both of you there, not manacled or anything 
like that, and talking friendly. Keep that when you are in the 
private rooms as well.
    Mr. Donahue. Well, it is much better when we are in a 
private room.
    Mr. Trumka. That is true.
    [Laughter.]
    Senator Lautenberg. Thank you very much.
    Senator Boxer. I am stalling only because Senator Carper is 
trying to get back here. But if he is not here in 5 minutes, we 
will let you go.
    But I might as well ask, just building on your point, Mr. 
Donahue, how difficult it is to get new ways to pay for things? 
I mean, it is a reality. I mean, it is a tough reality. The 
reason that I decided that TIFIA was a good way to go, rather 
than another new wave, is because it is there.
    Mr. Donahue. Right.
    Senator Boxer. As Senator Inhofe said, it is funded at a 
very low level. But it is there. The beauty of TIFIA, and I 
want both of you to expand on this, is that if the Federal 
Government steps up, or even the private sector steps up, and 
they know there is a stream of revenue that is definitely 
coming, and here we have a circumstance where we are fighting 
over a 3-year bill, a 6-year bill, a 10-year bill, in the case 
of some of our local friends, Mayors and such, they pass this 
bond that is going to bring money in for 30 years, 30 years. 
So, we know there is a stream of funding there.
    So, if TIFIA steps out with virtually no risk, comes in 
front and says, we will front the money, to me this is a 
beautiful idea. I was so excited when the Los Angeles people 
came to me because it was actually Mayor Villaraigosa but also 
the Chamber there, the unions there, everyone together, a 
couple of years ago, and we were able to work together and get, 
Senator Inhofe, the first TIFIA loan in a while.
    To them, it resulted in a huge check going, it was a $500 
million check that went to Los Angeles based on this stream of 
revenue, and the cost to the Federal Government $20 million. 
That is the risk for a $500 million check, $20 million. So, it 
is a way to leverage, leverage, leverage.
    So, I would like to know if you would both expand on that--
--
    Mr. Donahue. There is one other thing and it is really 
important to focus on. It is going to do 30 years worth of 
development in 10 years.
    Senator Boxer. Right, which means----
    Mr. Donahue. It is going to front load all of that and it 
is going to save $500 or $600 million by front loading the 
action and not paying it with expanded money. I think, you 
know, why it is great to talk about, and I think it is great 
that they went and got the money, they found a source to pay 
for it, they got the private investment, but I like to say they 
shortcut lots and lots of the bureaucracy and they put 
themselves in a position where they are going to do 30 years 
worth of development in 10 years.
    Senator Boxer. It is just great.
    Mr. Donahue. I talked to the Mayor yesterday and told him 
charge on. We will put you on a platform to tell people about 
it.
    Senator Boxer. Wonderful. Do you have any comments on that?
    Mr. Trumka. Sure. We absolutely support the concept. Not 
only will it do 30 years of work in 10 years, it will create 
160,000 new jobs, it will create 77 million new boarders on the 
transit system and it will eliminate 521,000 pounds of mobile 
sources of pollution in the process. It is done with the 
cooperation of everybody out there. It is a great project. We 
support it.
    Senator Boxer. Well, I am hoping to work with Senator 
Inhofe so that we can make this really a major piece of our new 
transportation bill as, again, picking up on Mr. Donahue's 
point, it is not a new program, it would just be an expansion. 
It is just a way to get those jobs going and have this 
certainty out. Yes, Senator Inhofe?
    Senator Inhofe. I would at least say, I will end up where I 
started off, and that is this is an area where government is 
supposed to be doing it. I have often said, with my 
conservative writings and all that, national defense and 
infrastructure, that is what we are supposed to be doing here. 
So I really do appreciate it. I do apologize for the brief 
interruption. I had to leave and I know that Senator Carper 
wants to get into this debate so I appreciate your being here 
very much.
    Mr. Trumka. Thank you.
    Senator Boxer. Senator Carper.
    Senator Carper. Thanks very much. We had a, the Democrats 
had a retreat last week down in Charlottesville and we spent 
about 2\1/2\ weeks, I mean 2\1/2\ days together, talking about, 
among other things, moving the economy and jobs and the 
economy. We talked about deficits, what course we need to take, 
they were talking about how do we implement health care reform 
in a way that gets better outcomes for less money, not just 
extend coverage to people that do not have it, but how do we 
actually get better outcomes for less money.
    One of the pollsters that was there, and I am sure Senator 
Boxer knows this, but one of the pollsters who was there, we 
had one polling person, laid down an in depth benchmark poll 
with, I do not know, 1,000 or so folks around the country, and 
the question was is the deficit a problem? Yes, it is. It is a 
big problem. It is a very big problem.
    What do we do about it? The poll actually walks people 
through domestic discretionary spending. What should we cut? 
Well, there was not much that they really wanted to cut. They 
went over to the defense side and said, what do we want to cut 
on the defense side and there was not much to cut there either. 
They kind of went through the retirement programs, Social 
Security, Medicare, Medicaid and the VA and stuff like that, 
and people are not really all that jammed up about cutting 
those either.
    Then in a pollster kind of thing he said if Congress 
decides to turn it back to us, are there any questions or 
comments and one of our colleagues, Al Franken of Minnesota, 
stepped forward, and he has a pretty good sense of humor. 
Senator Franken? Al said, as only he can say, I think it was 
Jeff Garin, he said Mr. Garin, you know what we need? Jeff says 
no. Al says, I think we need a new public.
    [Laughter.]
    Mr. Donahue. An educated public.
    Senator Carper. That is for sure.
    I understand Senator Boxer talked to you about the revenue 
side of this and I was out of the room, I was bounced over to 
the Finance Committee here to be able to question Secretary 
Geithner. So, I missed that back and forth. I want to just 
drill down on it just a little bit. I appreciate what I think I 
understand you two have said.
    I want to say to Mr. Trumka, thank you very much for your 
comments about working, billing off the user fee that we have 
in place. It is all well and good that we try to figure out how 
to create revenues out of vehicle miles traveled, and we ought 
to do a very serious demonstration, I think, of that to see 
what are the pitfalls of that and how does it work.
    When I was Governor, I had the opportunity, several times, 
to call for increases in taxes or revenues that went into our 
Transportation Trust Fund. Of the things I am proudest in my 
time of Governor is that we ended up with a AAA Credit Rating 
for the first time in our State's history.
    But the premise behind what we worked on in Delaware, 
besides revenue, is environment, just really nurturing for jobs 
and job creation. Well, we believe in paying for things that 
are worth having. If they are not worth, if we are not willing 
to raise the money to pay for them, we are just not going to 
have them. That is our premise. I think the same should be our 
approach with respect to transportation. We want this stuff, we 
want roads, highways, bridges, rails, whatever. Then you pay 
for this stuff.
    A guy named Samuelson, an economist name Samuelson, 
suggested a couple of years ago, I read his OpEd, he said let 
us raise the Gas Tax a penny a month for 48 months, so he said. 
A penny a month for 48 months. It will do several things.
    No. 1, it will give us the money to actually have a world 
class transportation infrastructure again. No. 2, he said, we 
could probably use some of that money for deficit reduction.
    No. 3, he said, it could actually send a price signal to 
people who are going to be buying cars, trucks and vans. When 
they are looking out there considering what to buy, and they 
are looking at something that gets 18 miles per gallon and they 
are looking at something that gets 40 miles per gallon, maybe 
they will be more inclined to buy the vehicle that gets 40 
miles per gallon. So, he says it sends a price signal over time 
to encourage people to buy some of the more energy efficient 
cars that are being created. That was his proposal, a penny a 
month, 48 months.
    George Voinovich and I took that idea and we said, let us 
not go that, be that bold, but a penny a month for 25 months, 
10 cents for deficit reduction, 15 cents for transportation. 
The Commission itself said well, we will not be that bold, but 
what we will do is basically a penny a quarter, a penny a 
quarter over 15 quarters, and use the money just for 
transportation, not for deficit reduction.
    I just would like for you to, just thinking about that 
specific proposal, and tell me what you think, would you like 
it or would you not?
    Mr. Donahue. Well, when you were away, Senator, I was drawn 
into a clear discussion of the fact that it has been 17 years 
since we increased the Federal Fuel Tax. Major trucks and cars 
are getting twice the miles per gallon they were getting back 
17 years ago. Therefore, in many ways we are collecting half of 
what we should be collecting in relation to the extraordinary 
increase in the number of miles driven.
    Second point, in response to the Chairlady, I made it clear 
that we are going to have to move soon because this is an 
integrated system of the Federal, State and local people with 
50, 25 and 25 percent, and nobody is going to put up their side 
in the State and the local until they know the Federal part of 
it is going to be there.
    So, we are, and this is where Rich and I really agree, we 
are sitting here not looking about creating more jobs, we are 
looking at the possibility of losing more jobs. So, this is the 
we can do it now system and I would, I would get a long-term 
reauthorization with some additional revenue and I would put 
into it a series of let us go figure this out over 2 years, the 
other questions that are being raised.
    The one point I raised about a penny a month or a penny a 
quarter, you have to take a little time to go look at what it 
takes to do that at every fuel pump in this whole country. 
There might be a better way, like to do a nickel and then 
sometime later a nickel. I think you might save a whole lot of 
money. On the other hand, we might hire a lot of people to go 
around and change the gas pumps. I mean, I am not really sure.
    Senator Carper. Yes. As it turns out, that is not a very 
hard thing to do.
    Mr. Donahue. So, where we are, where the Chamber will be on 
this issue, notwithstanding all of the political arguments 
about taxes, we will support it.
    Senator Carper. Thank you. That is good to hear.
    Mr. Trumka, you mentioned touchstones briefly. Would you 
just go back and revisit this for me again, the issue of a very 
slow, modest increase in the gas tax over a period of 3 or 4 
years, by maybe a penny a quarter. I think you spoke to this 
already but I would just want you to restate it.
    Mr. Trumka. Oh, I thought you were talking to him. Sorry 
about that.
    We would support that kind of a tax, too. We think that a 
user fee ought to be dedicated to transportation though. It 
should not be used and raided for other things. We would 
support an increase in that tax to get these jobs started 
immediately because, as I said earlier, we have 14 million 
Americans out of work. We need to get them back to work.
    Senator Carper. Alright. Thanks very much. Thanks, Madam 
Chair.
    Senator Boxer. Thank you. We are so pleased that we have 
been joined by Senator Baucus. He and Senator Carper were at a 
hearing of his committee and, as you probably know, Senator 
Baucus is the Chairman of our Subcommittee on Transportation. 
So, we are really happy.
    Senator Baucus. Thank you, Madam Chairman. I would ask that 
my statement be added to the record.
    Senator Boxer. Without objection.
    Senator Baucus. You both are great leaders. You have large 
followings. You think a lot about our country. How do we 
develop a national consensus on infrastructure that includes 
both urban and rural, and avoids the question that often 
arises, a lot more from my State, you have too much in your 
State, etcetera. How do we get this, make this into a more 
national program of infrastructure construction so that 
Americans realize we are all in this together, we are one 
country?
    Mr. Donahue. Well, just before you came in, Senator, I made 
the point that when I used to run the trucking association I 
had to always tell the truckers when they were upset about 
transit, the money going to transit, I said that is not the 
issue. The issue is that it is urban votes for rural roads. So, 
in other words, the issue was the system supports what we need 
in the urban centers and it supports what we need in the rural 
centers.
    I mentioned to Chairman Boxer that many years ago in 
California the truckers were mad about having to pay for roads 
in Nevada. I said, OK, so do not pay for roads in Nevada. How 
are you going to go east? Are you going to drive all the way up 
to San Francisco and start across?
    Senator Baucus. Let us say Montana. In Montana, 60 percent 
of truck traffic does not originate in Montana.
    Mr. Donahue. That is exactly right. So that is why we have 
an integrated system, and that is why it gets a little funny 
when every State wants to get 105 percent of the money they 
send in back.
    But the bottom line is, this is a, this is an education 
system, and you have a very rare opportunity here because the 
business community, that part of which I represent, and the 
labor community, that part which Rich represents, has just said 
that it is so fundamental that we get a reauthorization here 
and it is important that we add funds to it, probably the 
easiest way through the existing system, but the big thing we 
said is we will publicly support it.
    Senator Baucus. Mr. Trumka, your thoughts on how we can 
develop a national thinking about this, avoid the parochial 
sector and the battles we often get into.
    Mr. Trumka. Well, I think that we first of all need to 
begin to educate the American public more about the job aspect 
that this creates, about the way that this makes us more 
competitive as a Nation in a global economy, and what it can do 
to make us more efficient, the savings that can be done.
    Then I think we have to restore America's trust in the 
transportation programs. I think we do that by doing quality 
projects. I think we do them right, we do them on time, and we 
forget bridges to nowhere so that the public does not have 
something to point at to say, that is the problem with this, 
that we do projects that are actually needed, that are going to 
make us more efficient and be able to compete a lot better.
    I think that all of things you talked about, the tax on the 
incoming products, is something that ought to be on the table. 
It ought to be debated so that this is shared, can be shared, 
equally. I think we need a dedicated user fee and I agree with 
Tom about that and I know that we need to get this thing 
reauthorized very, very quickly. But I think all sources of 
funding, at some point, need to be on the table and need to be 
discussed.
    Senator Baucus. There is a big gap here. I think it is a 
Rockefeller Commission study out just recently----
    Mr. Donahue. That was interesting.
    Senator Baucus. Sorry?
    Mr. Donahue. That was interesting.
    Senator Baucus. Yes, very interesting. As I recall, about 
two-thirds of Americans want better infrastructure in America. 
They want it. Two-thirds of Americans do not want to pay for 
it.
    Mr. Donahue. Well, that is the great thing about being 
American.
    [Laughter.]
    Senator Baucus. Well, I think the gap is worse now that it 
has been in the last, now than it has been in a reasonable 
period of time. I am not going to name all of the reasons why, 
I have my own personal ideas as to why that has happened, but I 
do believe it has happened.
    Mr. Donahue. I do believe it has and----
    Senator Baucus. Well, how do we address that?
    Mr. Donahue. Well, I think in addition to the things that 
Rich and I talked about, the thing that sent Americans in the 
right direction is talking about getting rid of congestion and 
improving mobility. I, you know, I think it is fair to say, 
sir, that the political battles that we have had across this 
Nation in both parties, purely bipartisan battles about taxes, 
and to include a user fee like this as a tax or a tax increase 
is fundamentally unfair. It may be politically, you know, 
attractive, but this is not a, this is to go use a road, man.
    The Chairman made the point that the truckers are ready, 
now, have committed. They are ready to go support this because 
they are looking at the roads they are running on and saying we 
are in trouble. I think you could build one really good 
coalition. I think Rich's point is very important. We have to 
educate people about this.
    Mr. Trumka. There is a, probably this is something that Tom 
and I will disagree on, but people do not want to pay in some 
instances right now because they truly cannot. Wages in the 
country have been stagnant for nearly 30 years right now. Their 
budgets have been stretched tighter and tighter, hidden fees 
have been foisted on them, whether it is educational fees that 
they now pay for a bigger share than they did before, so they 
are at the stretching point.
    While I think they understand the importance of 
infrastructure and how it can help their lives be better, 
anybody that commutes into this city would know that they are 
at the stretching point. This is one place where I think we 
could actually help them by seeing, by moving from a low wage, 
high consumption strategy in this country to a higher wage 
consumption strategy in this country, so that if more people, 
for instance, had collective bargaining, a greater share of the 
wealth would be given to them.
    When they were making money, you did not hear a squeak 
about giving money on the tax. It is whenever their budgets and 
the wages were stretched to the minimum that they began to 
recoil at it. So, I think we need to look at that as well.
    Senator Baucus. Well, I do not think there is much 
disagreement among members of this Committee and between the 
Committee and you two. But I will say this. I think we have to 
think much more critically, much more creatively, as never 
before, to try to figure out how we bridge that gap. Because 
right now the politics in this country make it very difficult 
to find the resources that address the need. It is very 
difficult.
    There are Senators, I will not mention any names, but they 
think we should cut infrastructure spending. Cut. Not build 
infrastructure, but cut. That is not helpful, from my 
perspective. But I just urge us all to listen to all of the 
goals and utter the right words that might save us and so 
forth. We have to think a lot more critically and creatively 
than we have in the past.
    But I thank you very much for your contributions.
    Mr. Trumka. Thank you.
    Mr. Donahue. Thank you.
    Senator Baucus. You have added a lot to this and I deeply 
appreciate both of you.
    Thank you, Madam Chairman.
    Senator Boxer. I am going to say, Senator, your question is 
very important. I think their presence here today, and the 
eloquence of their testimony they gave us, and their commitment 
to stand by our side, is very strong.
    That may be one way we can regain some trust here, just 
because we are coming together at a time where, we held up, 
before you came, can you show Senator Baucus just one of those 
posters? We held up, the staff held up, 20 of these posters, 
Chairman Baucus. It is the Super Bowl, 100,000 people. Two 
million workers unemployed, 20 of those posters we stood up and 
showed. That is who is unemployed just in the construction 
industry.
    So, we have an imperative. I just want to get back and then 
we will close this off. Excuse me, I have the end of bronchitis 
or something here.
    Custom fees. Every country levies them. The question is 
should we take a bigger percent of them?
    Mr. Donahue. I am not sure, Madam Chairman, that I heard 
that. Did you say customs fee?
    Senator Boxer. Yes. U.S. customs fees.
    Mr. Donahue. If you talk to the customs people, of course 
they will tell you about all of the pressure they are under and 
all of the money they need that they are not getting.
    I think, my closing statement, because I would like to 
leave on a very positive note, is that I believe you are on the 
right track here trying to move in a quick order to keep in 
place some good programs, to try and put more people to work 
and for sure not lose people from their jobs. I recommend that 
you start by using what we have to get this done, and then we 
would be happy to participate in discussions that go beyond 
this later on.
    Senator Boxer. Good. That is fair.
    Senator Sanders, would you close up shop here?
    Senator Sanders. Sure.
    Senator Boxer. Good. Thank you both immensely for this. It 
has been extraordinary.
    Senator Sanders. Madam Chair, my apologies for jumping in 
and out, but I had two other hearings that I had to go to and I 
think this is extremely important.
    Let me close with the fact that so many people from 
different political persuasions understand the need to rebuild 
our infrastructure. I think that is very significant. There 
will clearly be differences of opinion of how we fund it.
    In my view, the middle class in this country is in steep 
decline. Poverty is increasing. I come from a rural State where 
people not infrequently travel 100 miles to and from their 
jobs. Raising the gas tax on those people who make $11 or $12 
an hour is not something that I am sympathetic to.
    On the other hand, I think Mr. Trumka makes an important 
point in his presentation, and that is that we are in the midst 
of this recession right now primarily, in my view, because of 
the greed and recklessness and illegal behavior on Wall Street. 
In recent years, Wall Street has captured about 40 percent of 
the profits in this country where we have lost over 40,000 
factories and manufacturing plants.
    I would like for Mr. Trumka to say a few words about his 
idea about a transaction fee on Wall Street, which I think does 
a lot of good. It raises a lot of money. It may curb some of 
the speculation that has got us into the problems that we have 
right now.
    Mr. Trumka, do you want to say a few words on that?
    Mr. Trumka. Certainly. I would say that we have actually 
lost 53,244 factories in the last decade. So we are hurting. 
The middle class is hurting. People are traveling further and 
further and further to work. People live in Harrisburg, cannot 
sell their house there, commute here because this is where they 
found work. So, it is a tough thing. I think in my presentation 
I said we have to look at that so that the burden does not fall 
on everybody. But I still support the gas tax, as we talked 
about.
    On the transaction tax, I would say two things. One, right 
now you find rampant speculation on the tax. It would be a very 
small tax, a half a penny a share, and you find people running 
price up in the morning, selling off, running up, selling off, 
running up, selling off. Little people cannot participate in 
all of that. The long-term investor does not get to do any of 
that and he ends up paying the tab for higher fees and 
everything. This could stop some of that.
    Tom will say that this is fleeting, that if you do this, 
money will flee. Well, the London Stock Exchange put a 50 cents 
a share tax on theirs and, after doing that Tom, they went from 
being the third largest Stock Exchange in the world to the 
second largest Stock Exchange in the world. It didn't seem like 
anybody fled. They came to it. It is a fair way to raise some 
taxes.
    Look, Wall Street created a mess. We are paying for the 
mess. Everybody believes that they are back to business as 
usual. This would be a chance for them to share in some of the 
pain. They like to talk about shared pain. It is an opportunity 
for them to do that.
    We advocated, I mean, people around the world, other 
countries are starting to do it from France to different 
countries that are now saying this is a good idea, we should do 
it, to tame some of the rampant buy ups and sell offs that we 
have day in and day out.
    Senator Sanders. Mr. Donahue, you no doubt completely agree 
with Mr. Trumka on this?
    [Laughter.]
    Senator Sanders. Do you think it is appropriate that we ask 
Wall Street to share of the pain that the rest of American is 
experiencing? Do you not?
    Mr. Donahue. That is a well crafted question, Senator. The 
reason we came here today was to talk about what to do about 
infrastructure. I did say in response to the question when you 
were at the other hearing that I do believe that there is a 
serious question of what happens when you impose those taxes.
    I would be very happy to give you some of the views we have 
about that and what I encourage the Chairwoman, and encourage 
you as well, we are on a very short timeframe to do something 
about this highway deal and I think it was March 4th the 
program runs out, and I think we ought to go and do that and 
then we would be very happy to talk about the half a dozen 
other ideas put forward.
    I will tell you that I have serious problems about 
transaction taxes of every type, but I would be very happy to 
sit down and talk to you about it.
    Senator Sanders. Well, I think you are right in saying that 
the immediate issue is rebuilding our infrastructure, putting 
people to work. But we are also, I think you will agree, going 
to have to figure out how we fund that expensive proposition.
    So, I guess I am the last one here. I want to thank both of 
you. I apologize for not being here, but I had two other 
hearings. This is enormously important. Thank you very much for 
being here and thank you very much for working together on this 
issue. Thank you.
    The hearing is now adjourned.
    [Whereupon, at 12:08 p.m. the committee was adjourned.]
    [Additional statement submitted for the record follows.]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Madam Chairman, thank you for scheduling this hearing. We welcome 
this excellent panel, representing both labor and business.
    A recent Rockefeller Foundation survey shows:

        <bullet>  66 percent of Americans think spending on 
        Infrastructure is important.
        <bullet>  But, 71 percent oppose a fuel tax increase.
        <bullet>  64 percent oppose tolling existing roads
        <bullet>  And, 58 percent oppose paying by the mile.


    So, Americans want infrastructure investment, but they question 
what they get out of spending more at the Federal level.
    They see it at the local level. In Billings, Montana, 254 were put 
to work converting Shiloh Road into a north-south artery that in a city 
where U.S. 3, U.S. 85, Interstate 90, and Interstate 94 all converge. 
It was ``all hands on deck'' as partners worked together at the city, 
county, State and Federal levels. This artery includes safety 
innovations such as roundabouts, which may well get applied in 
Belgrade, Montana and elsewhere in the State.
    Shiloh Road shows us that transportation projects provide good jobs 
during the construction process, ensure connectivity to the rest of the 
country, and help communities attract even more business in the long 
run.
    This kind transformation feeds economic activity in the region and 
beyond.
    Compromise is the key. This is the year to do a Highway Bill. We 
all know that next year will be consumed with election-year politics.
    So, I am very interested in our witnesses' perspectives. I hope we 
will discuss transportation needs, job creation and innovative funding. 
We need to do a smart bill, focusing on needs and spending American 
road users' money wisely.
    Thank you, Madam Chairman.

                                 <all>

</pre></body></html>
